<html>
<title> - NATIONAL PARK BILLS</title>
<body><pre>[Senate Hearing 111-476]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-476

                          NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 553                                S. 1017                           S. 1018                               S. 1537                           S. 1629                               S. 2892                           S. 2933                               S. 2951                           H.R. 3804
                                     

                               __________

                             MARCH 17, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
56-802 PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee








                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     4
Burris, Hon. Roland, U.S. Senator From Illinois..................     7
Sessions, Hon. Jeff, U.S. Senator From Alabama...................    11
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................    13
Wilson, D. Reid, Executive DirectorConservation Trust for North 
  Carolina.......................................................    27

 
                          NATIONAL PARK BILLS

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
        Subcommittee on National Parks, Committee on Energy
                                     and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:45 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    The purpose of this afternoon's hearing is to consider nine 
bills pending before the subcommittee. Although we have a long 
list of bills on the agenda, for the most part, the bills 
appear to be fairly straightforward, so we should be able to 
consider them quickly.
    The bills to be considered today include S. 553, to revise 
the route of the North Country National Scenic Trail in 
Minnesota; S. 1017 and S. 1018, which are bills to reauthorize 
the Cane River National Heritage Area Commission in Louisiana 
and to authorize the National Park Service to enter into an 
agreement with Northwestern State University to construct a 
curatorial facility for the Cane River Creole National 
Historical Park; S. 1537, which would designate Dr. Norman 
Borlaug's home in Cresco, Iowa, as a National Historic Site; S. 
1629, authorizing the National Park Service to study the New 
Philadelphia archeological site in Illinois to determine its 
suitability for addition to the National Park System; S. 2892, 
to establish the Alabama Black Belt National Heritage Area in 
Alabama; S. 2933, to authorize a National Park Service study of 
the Colonel Charles Young home in Xenia, Ohio; Senate bill 
2951, Senator Burr's bill to authorize the acquisition of 
certain lands for addition to the Blue Ridge Parkway; and H.R. 
3804, a bill making minor and technical corrections to several 
laws affecting the National Park Service.
    The subcommittee has received a statement from Senator 
Voinovich in support of his bill, S. 2933, and also a statement 
from the Norman Borlaug Heritage Foundation in support of S. 
1537. Without objection, both statements will be included in 
the record.

    [The prepared statements of Mr. George Voinovich, and Tom 
Spindler follow:]

                                               U.S. Senate,
                                    Washington, DC, March 12, 2010.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
    Dear Senator Bingaman: In an effort to protect an important chapter 
of American history, I recently introduced the Colonel Charles Young 
Home Study Act (S.2933). As a Buffalo Soldier serving with the 9th and 
10th Cavalry and the 25th Infantry, Col. Young overcame severe 
institutional and racial intolerance to be the third African American 
graduate of West Point, the first African American national park 
superintendent, the first black U.S. military attache, the first 
African American officer to command a Regular Army Regiment, and the 
highest-ranking black officer in the Regular Army until his death.
    Originally born into slavery, Col. Young made significant military 
and public service contributions to the nation and my home state of 
Ohio. His service in the Army between 1884 and 1922 rode the tide of 
the turbulent changing race relations in the United States. At the 
time, there were few assignments deemed suitable for a black officer, 
but undeterred, Col. Young made the most of his career. He leveraged 
his experiences and distinguished himself as a commander of combat 
troops in the Spanish-American and Mexican Wars.
    As the commander of an Army unit assigned to protect and develop 
Sequoia National Park and General Grant National Park in the 
California, Col. Young lead efforts to protect the parks, completed the 
first wagon-road into Sequoia National park, and built lasting 
relations with the local populace. Col. Young's story, as it relates to 
our national parks, is so crucial to our modern day parks system that 
it was recently highlighted in the PBS documentary film by Ken Burns 
titled ``The National Parks: America's Best Ideas,'' a clip of which 
you can find on my website here: http://www.voutube.com/senvoinovich#p/
c/l/D7x59allUqo.
    The Colonel Charles Young Home Study Act would authorize the 
Secretary of the Interior to conduct a special resource study to 
determine the suitability and feasibility of designating the Colonel 
Young's home, already a National Historic Landmark, in Xenia, Ohio as a 
unit of the National Park Service.
    I want to thank you and your fellow committee members for agreeing 
to consider the legislation during your March 17; 2010 National Parks 
Subcommittee hearing. When this legislation comes before the full 
committee, I would respectfully request and appreciate your support for 
this worthy piece of legislation.
            Sincerely,
                                       George V. Voinovich,
                                                      U.S. Senator.
                                 ______
                                 
Prepared Statement of Tom Spindler, President, Norman Borlaug Heritage 
                         Foundation, Cresco, IA
    Chairman Udall & Members of the Subcommittee on National Parks, on 
behalf of the Norman Borlaug Heritage Foundation, I would like to thank 
you for this opportunity to speak with unqualified support for S. 1537, 
a bill introduced by Senator Grassley of Iowa authorizing the Secretary 
of the Interior, acting through the Director of the National Park 
Service to designate the Norman Borlaug birthplace and boyhood homes 
and farms near Cresco, Iowa as a National Historic Site and a unit of 
the National Park Service.
    While the members of the committee are likely familiar with the 
accomplishments of Dr. Borlaug, I would like to briefly summarize for 
the record why his birthplace, childhood home and legacy are deserving 
of enshrinement as a National Historical Site.
    Dr. Norman E. Borlaug (1914-2009) was an agricultural scientist who 
was born and raised in the rural heartland near Cresco, Iowa, and was 
educated early in life in a typical one room Iowa schoolhouse. While 
his origins were somewhat typical for the time, there was nothing 
typical about his life and accomplishments. After completing his 
education in plant pathology, he spent his career working to improve 
international agricultural productivity by increasing wheat production 
through a series of innovative cross breeding techniques that in turn 
created a set of high yield, disease resistant varieties. While this 
seminal work may seem obscure or even trivial to the uninformed, it 
would be difficult if not impossible to overstate the importance of 
this work in terms of reducing global hunger, increasing global 
stability and, in the long term, increasing the probability of the 
survival of the human species itself. As a result of his insight, 
dedication, and work, Dr. Borlaug is credited with saving perhaps a 
billion lives during the 20th century, more than any person in the 
history of the world. The agricultural transformation brought about by 
Dr. Borlaug's work and accomplishments has come to be known as the 
``Green Revolution'', and Dr. Borlaug is widely recognized as being the 
``father'' of this development. For his work, Dr. Borlaug received 
hundreds of prestigious awards, one of which, the Congressional Gold 
Medal, was bestowed upon him by this body three years ago in 2007. Dr. 
Borlaug was also awarded the Presidential Medal of Freedom in 1987 and 
the Nobel Peace Prize in 1970. Along with Mother Theresa, Martin Luther 
King, Nelson Mandela, and Elie Wiesel, Dr. Borlaug is one of only five 
people to have ever received all three of these coveted awards, which 
have served as international recognition for their unending efforts to 
make the world a better place for all of humanity.
    Dr. Normal Borlaug passed away in September last year at the age of 
95. Like other great humanitarians, Dr. Borlaug was passionately 
engaged in his work until the very end of his life, saying only a 
couple days before he passed away, ``Africa, my mission is not 
finished.'' Since his death, praise for and support of his body of work 
has come from nearly all reaches of the global community, and has 
included a resolution from this body (S.Res.273) as well. Dr. Borlaug 
is the definition of a great American and global humanitarian.
    As I noted above, I speak on behalf of the Norman Borlaug Heritage 
Foundation (NBHF). This Foundation is a non-profit corporation with an 
all-volunteer board that for the past ten years has been dedicated to 
the preservation and interpretation of Dr. Borlaug's legacy, birthplace 
and boyhood home. To accomplish these objectives, the Foundation has 
purchased and holds unencumbered control of two properties in rural 
Northeast Iowa that comprise approximately 100 acres and include Dr. 
Borlaug's birthplace and boyhood homesteads as well as the country 
school that he attended as a youth. These sites are nationally 
significant both in terms of history and the scientific legacy of Dr. 
Borlaug. The Borlaug sites, set in the breadbasket of the Midwest, 
represent the crossroads of America where science and feeding the world 
met. Preserving these farms will not only help to preserve his legacy, 
but will provide a unique opportunity to interpret for the American 
public the importance of science in agriculture, and how pursuit of 
these two fields led Dr. Borlaug to help feed the world's neediest 
peoples, and avoid the often predicted epidemics of mass starvation due 
to food shortages. Throughout his long life, Dr. Borlaug often stated 
how important his childhood was in shaping his character and work 
ethic, and the rich soils and cooperative ``neighbor-help-neighbor'' 
culture of the early 20th century rural Midwestern farming community 
provided the ideal incubator for his interest in agricultural 
production and helping his fellow man.
    It is our desire to turn ownership of the Borlaug properties over 
to the United States Government upon the establishment of the Dr. 
Norman E. Borlaug Birthplace and Childhood Home National Historic Site. 
We believe firmly that this could be a focal point of telling Dr. 
Borlaug's story within the context of farm life in early 20th century 
America. To date, the Foundation has been committed to promoting and 
interpreting Dr. Borlaug's lifetime achievements and philosophy through 
preservation of the Borlaug properties and outreach educational 
programs such as the Norman Borlaug Education Day events and the 
Education Residency Program. Through countless hours of volunteer labor 
and monetary donations, Norman Borlaug's boyhood home, barn, and the 
one room school house he attended have been preserved and restored. 
However, our Foundation has just recently acquired the birthplace home. 
It is in a state of disrepair, and major renovations are needed. Our 
resources are very limited, relying on local donations. As of now we 
would not be able to begin this renovation. While the Foundation 
recognizes the importance of preserving the physical manifestations of 
Dr. Borlaug's early life in Iowa, our primary goal and focus is on the 
future. Namely, we consider the discussion and interpretation of Dr. 
Borlaug's life, work and legacy, as both a scientist and humanitarian 
as our primary mission and interpretive themes. By looking at Dr. 
Borlaug's life and achievements, current and future generations will be 
able to view Dr. Borlaug's accomplishments at the intersection of the 
sciences and humanities. This in turn will serve as a starting point 
for their own understanding, appreciation and application of science in 
improving the conditions of the American and global communities, and 
inspire future generations to follow in Dr. Borlaug's footsteps.
    Regional and local community support for this proposal is very 
strong. Currently, the NBHF collaborates with the City of Cresco, 
Howard County Economic Development, Iowa State University (ISU), 
volunteers, several area school districts, and the general public to 
provide tours, field trips, school day opportunities, summer interns 
for Iowa State University students and artist in residence experiences. 
The annual Norman Borlaug Harvest Fest is held each fall in Cresco and 
honors Dr. Borlaug and his family. It also provides tourism 
opportunities for the greater Northeast Iowa area. Field trips and 
education days have top-notch educators who volunteer from ISU, NICC, 
and retired and currently practicing elementary teachers. Educational 
opportunities involve the arts, literacy, science, including ``wheat 
and genetics'' and agronomy, history of education and the one room 
school house, geography and global studies. But these educational 
experiences are limited given that all of it is through volunteerism. 
The ability to expand beyond our local area is not feasible given our 
limitations. The Foundation's ultimate goal of a facility for 
educational outreach programs to the farm sites is not possible without 
a National Historic Site designation. The NBHF would continue to work 
with the Park Service where appropriate through volunteering with 
educational opportunities and programming, and assisting the Park 
Service with care and maintenance as needed.
    Your support for the creation of a National Historic Site honoring 
the work of Dr. Borlaug would ensure that his accomplishments and 
legacy would be remembered in perpetuity. In his 1970 Nobel Peace Prize 
acceptance speech, Dr. Borlaug stated, It is a sad fact that on this 
earth at this late date there are still two worlds, `the privileged 
world' and `the forgotten world'. The privileged world consists of the 
affluent, developed nations, comprising twenty-five to thirty percent 
of the world population, in which most of the people live in a luxury 
never before experienced by man outside the Garden of Eden. The 
forgotten world is made up primarily of the developing nations, where 
most of the people, comprising more than fifty percent of the total 
world population, live in poverty, with hunger as a constant companion 
and fear of famine a continual menace. Your support of this bill will 
ensure that we as Americans not only celebrate Dr. Borlaug's legacy, 
but that we continue to work towards fulfilling his noble goals.
    On behalf of the Norman Borlaug Heritage Foundation Board, I thank 
you for this opportunity to address your committee.

    Senator Udall. At this time, I would like to recognize 
Senator Burr for his opening statement.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. I thank you for 
calling this hearing and thank you for a productive year so 
far.
    We do have a full agenda, and I will keep my remarks brief. 
Nine bills, one of those bills on the agenda today involves my 
home State of North Carolina, the Blue Ridge Parkway Protection 
Act, which I introduced, along with Senator Hagan, Webb, and 
Warner. I would like to submit statements from Senator Hagan 
and Senator Webb, as well as Representative Shuler and Price, 
who are also supporting the bill.
    [The prepared statements of Senators Hagan, and Webb, and 
Representatives Price and Shuler follow:]
  Prepared statement of Kay R. Hagan, U.S. Senator From North Carolina
    Thank you to the Chairman and Ranking Member for your ongoing 
efforts to preserve and enhance our nation's most pristine natural 
landscapes and historic national heritage areas. The Blue Ridge Parkway 
Protection Act (S. 2951) offers a unique opportunity to continue this 
enduring commitment, and I thank the subcommittee for considering this 
important legislation.
    In North Carolina, we are fortunate to have an exceptionally 
diverse collection of national parks and public recreation areas. From 
Great Smoky Mountains National Park in the west, to Cape Hatteras 
National Seashore along the coast, North Carolina's public lands 
provide visitors from all walks of life with opportunities to hunt, 
fish, hike, and simply appreciate the landscape.
    In particular, the Blue Ridge Parkway has for 75 years offered 
visitors from across the world some of the most spectacular views in 
America. Originally authorized to put Americans to work during the 
Great Depression, construction of the Blue Ridge Parkway began in 1935 
near Cumberland Knob, North Carolina. Today, the nation's first and 
longest protected roadway stretches more than 450 miles from Shenandoah 
National Park in Virginia to Great Smoky Mountains National Park in 
North Carolina.
    The Parkway's breathtaking views attract nearly 20 million visitors 
per year, making it the most visited unit of the National Park System 
and one of the strongest economic engines in my state. Parkway 
overlooks encompass healthy forests and wildlife habitats, pure 
mountain streams, and historic family farms. These views generate an 
estimated $2.3 billion in North Carolina and Virginia annually, 
creating and sustaining jobs throughout the southern Appalachian 
region.
    Unfortunately, despite the enduring cultural and economic import of 
the Parkway, federal efforts to protect high-priority views and ensure 
visitor safety have not kept pace with the Parkway's growing 
popularity. As has been noted by others during today's hearing, 
significant portions of land surrounding the Parkway are privately 
owned and subject to potential commercial development. Such development 
may threaten existing natural landscapes and discourage future 
visitation along the Parkway. Likewise, aging infrastructure threatens 
Parkway safety and has left portions of the Parkway closed to visitors.
    With the 75th Anniversary of the Parkway's dedication occurring in 
September 2010, Congress has a crucial opportunity to commemorate this 
important milestone and reaffirm the nation's commitment to a safer and 
more scenic Parkway. To that end, the Blue Ridge Parkway Protection Act 
would authorize $75 million over five years to allow the National Park 
Service to acquire and preserve high-priority land surrounding this 
historic roadway.
    The proposed legislation would support long-term planning and new 
acquisition--by donation, by purchase with donated or appropriated 
funds, or by exchange--of up to 50,000 acres of land surrounding the 
Parkway. New land acquisitions would be entirely voluntary, with 
priority placed on enhancing scenic views; preserving recreational and 
natural resources; and, improving Parkway infrastructure to help ensure 
visitor safety.
    In addition, the legislation will ensure that the Park Service will 
submit to Congress an annual report detailing the condition of the 
Parkway, including threats and land preservation needs; a list of land 
acquisitions that have been completed or are underway; and, a list of 
priority land acquisitions to be pursued in the near-term.
    As an indication of the unique position that the Blue Ridge Parkway 
occupies both regionally and nationally, the Blue Ridge Parkway 
Protection Act carries bipartisan, bicameral support. Likewise, 
conservation groups from throughout the Southern Appalachian region 
have expressed strong support for these critical investments.
    I urge the subcommittee to support this effort, and to recognize 
that a renewed investment in the Blue Ridge Parkway is an investment in 
the North Carolina economy. Thank you once more for considering this 
important legislation and I look forward to working with the 
subcommittee to secure its consideration before the full Senate as 
quickly as possible.
                                 ______
                                 
    Prepared statement of Hon. Jim Webb, U.S. Senator From Virginia
    Chairman Udall and Ranking Member Burr: Thank you for this 
opportunity to address the Subcommittee on National Parks.
    From our beaches to our pristine national parks and historic 
battlefields, Virginia's tourism industry is a leading driver of the 
Commonwealth's economic engine. According to the U.S. Travel 
Association, visitors to Virginia spent $19.2 billion in 2007 and 
generated $2.6 billion in revenues for federal, state and local 
governments. The Association estimates that every $1 million spent by 
visitors creates 11 jobs within the tourism industry.
    With these figures in mind, I believe the Blue Ridge Parkway 
Protection Act is a sound investment for Virginia's future. The Blue 
Ridge Parkway is one of the Commonwealth's most significant tourist 
attractions, and has been nicknamed ``America's Favorite Drive'' by the 
National Park Service. As 2010 marks the Blue Ridge Parkway's 75th 
anniversary, an expansion of the lands under the National Park 
Service's protection is an appropriate way to celebrate the Parkway and 
ensure its continued viability into the future.
    As a longtime supporter of natural and cultural landmark 
preservation, I look forward to working with my colleagues in the 
Senate to pass this legislation.
                                 ______
                                 
  Prepared statement of Hon. David E. Price, U.S. Representative From 
                             North Carolina
    I would first like to thank the distinguished Chairman and Ranking 
Member for their commitment to preserving America's treasured 
landscapes. S. 2951, the Blue Ridge Parkway Protection Act, is in 
keeping with that commitment, and I appreciate your considering it 
today.
    The Blue Ridge Parkway runs for nearly 500 miles along the crest of 
the Blue Ridge mountains through North Carolina and Virginia touches 
boundaries with state parks, four national forests, and five federally 
designated wilderness areas. It is truly a national treasure, and if 
you haven't been, I hope you'll make a point of going.
    The Blue Ridge Parkway is the most visited unit of the National 
Park system, with between 15 and 20 million visitors per year, and has 
been enjoyed by more than 850 million visitors since the park started 
counting in 1939. It's also a critical economic driver for the region, 
generating about $2.3 billion in economic activity in both states 
annually.
    The Parkway is best known for its scenic view, but in addition to 
providing spectacular vistas, lands along the Parkway also provide 
clean water for downstream communities, support family farms, offer 
abundant forested wildlife habitat, and enable recreation. In fact, the 
Parkway is world renowned for its diversity.
    Unfortunately, the Parkway's scenic, natural, and cultural 
integrity are threatened. For one thing, funding has not always kept 
pace with increasing visitation, aging infrastructure, and the need to 
work with local communities on protection of adjacent land. 
Additionally, in most places the Parkway is only 800 feet wide, and 
two-thirds of mountainside and rural farm landscapes that comprise the 
views are privately held.
    A National Park Service survey found that a significant majority of 
Parkway visitors consider the pristine, undeveloped landscape, and the 
scenic views they provide, as the biggest reason they choose to visit 
the Parkway and indicate they would be less likely to return to the 
Parkway if its scenic views were compromised.
    In light of public opinion, and in honor of the 75th anniversary of 
the Parkway, which will take place in September 2010, I was pleased to 
join Rep. Shuler and a number of my distinguished colleagues from North 
Carolina and Virginia in a bicameral, bipartisan, bi-state effort to 
preserve the integrity of this treasured national resource for us and 
for generations to come.
    We have introduced the Blue Ridge Parkway Protection Act, which 
would authorize $75 million over the next five years for the Park 
Service to acquire up to 50,000 acres of land bordering the scenic 
roadway.
    When compared to the cost of compensating visitors for the lost 
views should development hinder or damage the views from the Parkway--
which is estimated at over $5 billion--our legislation is a bargain!
    While there are no specific parcels defined in the bill, all land 
purchases would be voluntary, and the Park Service would place a 
priority on lands that meet three purposes: (1) adding more scenic 
views along the drive; (2) enhancing the parkway's recreational and 
natural resources; and (3) eliminating or improving dangerous crossing 
and intersections.
    This bill would help to protect the views that make the Parkway 
such a popular attraction and roadway. I hope you'll agree that 
ensuring the continued conservation of the land around the Parkway is a 
fitting way to celebrate the Parkway's 75th year. Again, I thank the 
Committee for considering the bill and hope you will approve it for 
floor consideration.
                                 ______
                                 
Prepared statement of Hon. Heath Shuler, U.S. Representative From North 
                                Carolina
    I first want to thank Chairman Udall, my friend from North 
Carolina, Senator Richard Burr, and members of the Subcommittee for 
convening this hearing to discuss, among other issues, S. 2951, The 
Blue Ridge Parkway Protection Act. As you all have tremendous 
experience in developing legislation pertaining to our federal lands, I 
am grateful for the opportunity to hear your feedback on this 
legislation and hope that your suggestions can be incorporated into 
this bill at a later date.
    The Blue Ridge Parkway spans the western portions of North Carolina 
and Virginia, running a total of 469 miles through some of the most 
beautiful terrain in the southeastern United States. As the most 
visited unit of the National Park Service, the Parkway provides 
recreational benefits for countless American families who enjoy the 
scenic drive and the abundance of opportunities for outdoor activities 
along the way.
    The Parkway is also a valuable economic asset to the communities 
alongside of it, with Parkway visitors injecting roughly $2.3 billion 
each year into dozens of cities and towns that rely on a thriving 
tourism economy.
    In 2008, the National Park Service commissioned a detailed survey 
of Blue Ridge Parkway visitors to better understand what elements of 
the Parkway are of the greatest importance to them. In that survey, 97% 
of all visitors said that the scenic views and scenic drive were the 
most important attributes of the Parkway. Clearly, the natural beauty 
that can be observed from the roadway is what makes this the most 
popular unit of the entire Park Service. It is for this very reason 
that my colleagues and I have introduced H.R. 4524, which is identical 
to S. 2951. Both of these bills would protect the most important lands 
along the Parkway and ensure that these scenic views are not disrupted 
by deforestation and development.
    S. 2951 would authorize the Park Service to acquire and incorporate 
into the boundary of the Blue Ridge Parkway up to 50,000 acres that are 
contiguous to current Parkway property. These properties must be 
identified by the Superintendent of the Parkway as top priorities for 
viewshed protection, and may only be acquired from willing sellers-
eminent domain can not be used to carry out any portion of this bill.
    In working with the National Park Service during the drafting of 
this legislation, it is clear that there are concerns about specific 
portions of the bill, all of which we believe can be properly addressed 
with the help and expertise of this subcommittee. I am grateful that 
the Park Service has shown such willingness to work with Senator Burr, 
Senator Hagan, and the sponsors of the House bill-Representatives David 
Price, Rick Boucher, and Tom Perriello, and myself-to enhance portions 
of this bill pertaining to acquisition authority and how best to 
utilize the great resources and abilities of qualified land 
conservation groups.
    I thank you again for your time and attention to the Blue Ridge 
Parkway Protection Act. I look forward to hearing your suggestions on 
this bill, which will preserve the viewsheds of the Country's most 
visited Park Service unit and protect the many local economies that 
depend on it.

    Senator Burr. This bill has bipartisan, bicameral support 
from North Carolina and Virginia. It is important for the 
continued enjoyment of the Blue Ridge Parkway.
    Annually, the Blue Ridge Parkway enjoys 19 million 
visitors, making it the most visited unit of the National Park 
System in the country. The parkway is a major attraction for 
the region and significantly contributes to the local economy. 
This bill would authorize the National Park Service to acquire 
land from willing sellers on a voluntary basis to protect areas 
that need the Park Service's Blue Ridge Parkway Land Protection 
Plan.
    I understand the Park Service has some concerns with our 
bill, but that staff has been meeting to find language that 
works for all parties. I look forward to working with the Park 
Service to address any concerns and issues.
    I would like to welcome Mr. Reid Wilson from Raleigh, North 
Carolina, and thank all of our witnesses for being here today.
    I thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Burr.
    We will turn immediately to Senator Burris, who I 
understand is scheduled to preside over the full Senate at 4 
p.m.
    So, Senator Burris, welcome. Without further ado, we would 
welcome your testimony. Thank you for taking the time to appear 
before us today.

       STATEMENT OF HON. ROLAND W. BURRIS, U. S. SENATOR 
                         FROM ILLINOIS

    Senator Burris. Thank you, Chairman Udall, Ranking Member 
Burr, and members of the subcommittee. Thank you for the 
opportunity to appear today to discuss my legislation, S. 1629.
    This legislation would direct the Secretary of Interior to 
perform a special resource study to evaluate the national 
significance, suitability, and feasibility of the New 
Philadelphia site, southeast of Springfield, Illinois, to be 
managed as a unit of the National Park Service.
    I feel this designation would prove especially important, 
adding to our history as a country. Archaeologists have pointed 
out that New Philadelphia was the first town before the Civil 
War founded, planned, and legally adopted by a freed African 
American, Frank McWorter. National Significance for the site 
has been established by virtue of a National Historic Landmark 
designation in 2009, and the ultimate goal is to create a new 
national park at the site of the New Philadelphia settlement.
    Let me tell you a little bit about the history of this 
intriguing site. The history of Frank McWorter and New 
Philadelphia is one of daring, hard work, luck, and shrewd 
family leadership.
    Born a slave in South Carolina in 1777, Frank McWorter 
moved to Kentucky with his owner in 1795. He married Lucy, a 
slave from a nearby farm. Later, allowed to hire out his own 
time and labor, McWorter engaged in a number of enterprises--
notably mining the minerals of the crude niter, an essential 
component of gunpowder--that proved profitable, allowing him to 
buy his wife's freedom in 1817, and his own freedom in 1819.
    Frank and Lucy McWorter left Kentucky for Illinois in 1830, 
the year the Thomas Lincoln family, with son Abraham, came to 
Illinois from Indiana. The McWorters bought a farm in Pike 
County, and that is Hadley Township, and platted the town of 
New Philadelphia in 1836. There was a clear defined lot of 
family homes, businesses, and a school, where citizens of all 
races lived.
    Bypassed by the railroad in 1869, the townspeople slowly 
dispersed from the scene by the late 1880s. Today, the town 
site is an open field, but the New Philadelphia township map 
with deed information shows the town lots and streets of New 
Philadelphia.
    Frank McWorter died at New Philadelphia in 1854, and his 
son, Solomon, assumed family leadership. Some of the family 
still resides in the area.
    In 2004, a 3-year National Science Foundation grant of 
$230,000 allowed 3 summers of archeological work hosted by the 
University of Maryland, in collaboration with the University of 
Illinois and the Illinois State Museum. This work located many 
intact town features, including substantial building 
foundations, the remains of wells, and pit cellars. In total, 
surveys and archeological investigation located more than 
65,000 artifacts.
    Oral histories from local residents and descendants, 
written accounts, census, land deeds, and tax records document 
the town's historical appearance. According to an 1872 map, the 
town consisted of 144 lots, each 60 feet by 120 feet, laid out 
in a grid pattern over 42 acres. Most blocks were divided into 
8 lots, and the primary thoroughfares were 80 feet wide. 
Importantly, Frank McWorter wisely platted New Philadelphia 
along the 2Pike County primary roads.
    Federal census reports in 1850 to 1880 indicate that 
residents were involved in a variety of enterprises--
cabinetmaking, shoemaking, and wheelwright, carpenter, 
seamstress, physician, teacher, merchants, and blacksmiths. A 
post office operated in the town from 1849 to 1853 and is said 
to have served as a stagecoach stop.
    In its designation as a National Historic Landmark in 2009, 
New Philadelphia is recognized for its high potential to yield 
information of major scientific importance to our 
understandings of everyday life in a racially integrated 
community, where formerly enslaved individuals, free-born 
African Americans, and Americans of European descent lived, 
worshipped, made commerce, and were educated together.
    I have been told it is generally recognized that previous 
research and archaeology from this era of our history has 
focused on historic sites associated with the colonial 
settlements, sites associated with the founding of our Nation, 
and the southern plantations associated with slavery. New 
Philadelphia would add new dimensions to our understanding of 
this time in our country's history.
    The New Philadelphia Association, a not-for-profit 
organization formed by area residents, seeks to appropriately 
preserve a substantial portion of the town site in honor of a 
remarkable man and family of the western Illinois frontier. 
Currently, 14 acres of the 42-acre site are under purchase 
agreement with the Archaeological Conservancy, and as I 
understand, the current owners of the land are open to further 
discussions on this project.
    Ideally, a national park unit at New Philadelphia would 
commemorate a theme important to all Americans--the struggle 
for freedom and opportunity. New Philadelphia would inspire 
current and future generations as a place of interracial 
cooperation in an era and region of intense racial discord that 
culminated in the American Civil War.
    So I want to especially thank Chairman Udall and Ranking 
Member Burr for their commitment to our National Park System 
and, second, for moving this legislation as quickly as 
possible. I know that, working together, we can add to the 
witness of history for all Americans to see and understand the 
remarkable accomplishments of Frank McWorter, his family, and 
the citizens of Pike County, Illinois.
    Mr. Chairman, I just want to say that even when I was in 
public office as a State controller and the attorney general of 
Illinois, I was working on this project, trying to help to 
identify the site and to preserve the site.
    Thank you for the opportunity to testify.
    [The prepared statement of Senator Burris follows:]

Prepared Statement of Hon. Roland W. Burris, U.S. Senator From Illinois
    Mr. Chairman, Ranking Member Burr, and Members of the Subcommittee, 
thank you for the opportunity to appear here today to discuss my 
legislation, S. 1629. This legislation would direct the Secretary of 
the Interior to perform a Special Resource Study to evaluate the 
national significance, suitability, and feasibility of the New 
Philadelphia site, southeast of Springfield, Illinois, to be managed as 
a unit of the National Park Service.
    I feel this designation would prove especially important, adding to 
our history as a country. Archaeologists have pointed out that New 
Philadelphia was the first town before the Civil War founded, planned 
and legally recorded by a freed African American, Frank McWorter. 
National Significance for the site has been established by virtue of a 
National Historic Landmark designation in 2009, and the ultimate goal 
is to create a new National Park at the site of the New Philadelphia 
settlement.
    Let me tell you a little bit about the history of this intriguing 
site.
    The story of Frank McWorter and New Philadelphia is one of daring, 
hard work, luck, and shrewd family leadership. Born a slave in South 
Carolina in 1777, Frank McWorter moved to Kentucky with his owner in 
1795. He married Lucy, a slave from a nearby farm. Later, allowed to 
hire out his own time and labor, McWorter engaged in a number of 
enterprises, notably mining the mineral `crude-niter' (an essential 
component of gunpowder) that proved profitable allowing him to buy his 
wife's freedom in 1817, and his own in 1819.
    Frank and Lucy McWorter left Kentucky for Illinois in 1830, the 
year the Thomas Lincoln family, with son Abraham, came to Illinois from 
Indiana. McWorter bought a farm in Pike County's Hadley Township and 
platted the town of New Philadelphia in 1836. There were clearly 
defined lots for family homes, businesses, and a school, where citizens 
of all races lived. By-passed by the railroad in 1869, the townspeople 
slowly dispersed from the scene by the late 1880's. Today, the town 
site is an open field, but the New Philadelphia township map with deed 
information shows town lots and the streets of New Philadelphia. Frank 
McWorter died at New Philadelphia in 1854, and a son, Solomon, assumed 
family leadership. Some of the family still resides in the area.
    In 2004, a three-year National Science Foundation grant of $230,000 
allowed three summers of archeological work hosted by the University of 
Maryland in collaboration with the University of Illinois and the 
Illinois State Museum. This work located many intact town features 
including substantial building foundations, the remains of wells, and 
pit cellars. In total, surveys and archeological investigation located 
more than 65,000 artifacts. Oral histories from local residents and 
descendants, written accounts, census, land deeds, and tax records, 
document the town's historical appearance. According to an 1872 map, 
the town consisted of 144 lots, each 60 feet by 120 feet, laid out in a 
grid pattern over 42 acres. Most blocks were divided into eight lots 
and the primary thoroughfares were 80 feet wide. Importantly, Frank 
McWorter wisely platted New Philadelphia along two of Pike County's 
primary roads.
    Federal census records from 1850 to 1880 indicate residents were 
involved in a variety of enterprises; cabinetmakers, shoemakers, a 
wheelwright, a carpenter, a seamstress, physician, teachers, merchants 
and blacksmiths. A post office operated in the town from 1849 to 1853, 
and is said to have served as a stagecoach stop.
    In its designation as a National Historic Landmark in 2009, New 
Philadelphia is recognized for its high potential to yield information 
of major scientific importance to our understandings of everyday life 
in a racially integrated community, where formerly enslaved 
individuals, free born African Americans, and Americans of European 
descent lived, worshipped, made commerce, and were educated together. I 
have been told it is generally recognized that previous research and 
archaeology from this era of our history has focused on historic sites 
associated with the colonial settlements, sites associated with the 
founding of our nation, and southern plantations associated with 
slavery. New Philadelphia would add new dimensions to our understanding 
of this time in our country's history.
    The New Philadelphia Association, a not-for-profit organization 
formed by area residents seeks to appropriately preserve a substantial 
portion of the town site in honor of a remarkable man and family of the 
Western Illinois frontier. Currently, fourteen acres of the 42-acre 
site are under purchase agreement with the Archaeological Conservancy, 
and as I understand, the current owners of the land are open to further 
discussions on this project.
    Ideally, a National Park unit at New Philadelphia would commemorate 
a theme important to all Americans: the struggle for freedom and 
opportunity. New Philadelphia would inspire current and future 
generations as a place of inter-racial cooperation in an era and region 
of intense racial discord that culminated in the American Civil War.
    I want to especially thank Chairman Udall and Ranking Member Burr 
for their commitment to our National Parks system, and secondly for 
moving this legislation as quickly as possible. I know that, working 
together, we can add to the witness of history for all Americans to see 
and understand the remarkable accomplishments of Frank McWorter, his 
family, and the citizens of Pike County Illinois.

    Senator Udall. Thank you, Senator Burris. Thank you for 
bringing this important opportunity to the attention of the 
subcommittee.
    I think this makes complete sense. I look forward to 
working with you to implement this study and with the Park 
Service, and the legacy of Frank McWorter and all that happened 
in New Philadelphia is one that we should cherish and preserve.
    So thanks for bringing this to the committee today. I would 
yield to the ranking member, if he has any additional comments?
    Senator Burr. No.
    Senator Udall. You can have the last word, if you would 
like, or if you need to----
    Senator Burris. I think it is time for me to go preside, 
gentlemen. So thank you very much, and I appreciate the 
opportunity to testify with such a distinguished committee.
    Senator Udall. Thank you, Senator Burris, for acknowledging 
our subcommittee. Thank you.
    Before we hear from the panel, I think I would like to ask 
Senator Sessions if he has any comments.

         STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR 
                          FROM ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I do.
    The Black Belt region of Alabama is composed of 19 
counties, represented by 6 of our 7 members of the 
congressional delegation. In 2008, I supported a feasibility 
study to determine if the Black Belt should be designated a 
national heritage area. That study concluded the area has 
natural, cultural, historic, and scenic resources that can be 
seen through the physical features and traditions in the region 
from its thriving agricultural economy to its prominence in the 
civil rights movement.
    As a result, in the 111th Congress, Senator Shelby and I 
introduced 2892 to establish the Black Belt National Heritage 
Area, and it highlights the features of the region that would 
designate the counties as a national heritage area.
    This is a great area of our State. It is an area that I 
grew up in. It is a poor area of the State but has a beautiful 
countryside. It is particularly rural. It has an unusual land, 
soil, and a rich black earth that is in some ways better and 
some ways not as good as others, more prairie-like. It is 
sticky when it is wet, but it is an historic region in the 
State, one of the first areas to be settled.
    Cotton was, of course, a primary crop over 100 years ago. 
But now, it is more prairie and catfish farming and that sort 
of thing. So, early on, the Creeks and Choctaws roamed the 
region. Then it was settled. The land was worked by African-
American slaves who now have seen great progress as a result of 
the civil rights movement centered in the Selma area and other 
areas in that region.
    So I am proud of the region. I believe it is a uniquely 
historical area. Senator Shelby and I appreciate the 
committee's consideration of that.
    I will offer for the record the rest of my remarks, but I 
thank the committee for your consideration of what we think is 
a very special and unique region of our State.
    [The prepared statement of Senator Sessions follows:]

  Prepared Statement of Hon. Jeff Sessions, U.S. Senator From Alabama
               alabama black belt national heritage area
    The Black Belt region is comprised of nineteen counties and is 
represented by six of the seven Members of the Alabama Congressional 
delegation. In 2008, I supported a feasibility study to determine if 
the Black Belt should be designated a National Heritage Area. That 
study concluded this area has natural, cultural, historic, and scenic 
resources that can still be seen through the physical features and 
traditions in the region-from its agricultural economy to its 
prominence in the Civil Rights movement. Indeed, the Black Belt had 
been one of the most segregated areas in the nation and the Civil 
Rights movement transformed the region and now most of the elected 
officials are African American. As a result, in the 111th Congress, 
Senator Shelby and I introduced S. 2892 to establish the Alabama Black 
Belt National Heritage Area, which highlights the features of the 
region and would designate the nineteen counties mentioned above as a 
National Heritage Area.
    This unique region played a significant role in American history. 
At the start of the nineteenth century, only a few Anglo-Americans 
lived in the Black Belt where Creeks and Choctaw farmed along the 
rivers and hunted on the vast prairie. However, in less than 20 years 
the Black Belt prairie land was transformed by farmers who rushed to 
Alabama to purchase land, work the soil, and grow cotton. It was one of 
the first great American land booms, virtually unrivaled until the 
California Gold Rush during the middle of the nineteenth century. By 
the end of 1819, Alabama was admitted to the Union, and two decades 
later the native Indian tribes had been forced west. In a flash, Black 
Belt fields were cultivated with row upon row of cotton replacing 
Tallgrass prairie. African-American slaves worked the land formerly 
roamed by Creeks and Choctaws. Indeed today the majority of the 
population in many of the counties is African American. It was nothing 
less than a prodigious, all-encompassing social, cultural, and 
environmental revolution. Eventually, cattle, pasture land, soybeans, 
catfish, forests, and paper mills replaced cotton fields on the 
landscape. Life on the rivers changed too. First, substantial trade 
towns and cities-Cahawba, Selma, Camden, Demopolis-sprang up, and for a 
time prospered along the riverbanks. By the middle of the nineteenth 
century large, paddlewheel steamboats navigated the region's major 
rivers transporting passengers, freight, and cotton. During the latter 
part of the nineteenth century and throughout the twentieth century, 
waterways were dammed to improve flood control, produce hydroelectric 
power and create reservoirs. Although change has occurred in a host of 
different ways in the Black Belt, the striking antebellum architecture 
still remains. Today, the Black Belt is rich in history and natural 
resources, but lacks adequate economic growth. There are treasured 
traditions and customs throughout the region. People travel from across 
the globe to walk the Edmund Pettus Bridge, to recall the Selma to 
Montgomery March for voting rights, participate in Civil War 
reenactments, visit the legendary Gee's Bend quilters, and observe 
firsthand Native American artifacts as well as the region's remarkable 
woodlands, streams, and rivers. Many of the communities in the Black 
Belt face declining populations, high unemployment rates, as well as 
infrastructure challenges. The designation as a National Heritage Area 
could be a positive factor in developing and encouraging new investment 
in a region that remains largely rural and contains some of the poorest 
counties in the United States. That the area is poor economically there 
can be no doubt. Yet it is rich in history, quality of life, faith and 
integrity. The spirit of the people is unsurpassed. Truly it is a 
unique and wonderful place, worthy of recognition as a National 
Heritage Area.

    Senator Udall. Thank you, Senator Sessions.
    I think I speak for the ranking member, as well as for 
myself, in acknowledging the importance of this area and your 
connection personally to it. The fact that you took time to 
come to the subcommittee today and share your insights and your 
family history does not go unnoted. We look forward to working 
with you. It seems to make very good sense.
    Senator Sessions. Thank you very much.
    Senator Udall. We would now call to the witness table Dan 
Wenk, the deputy director of the National Park Service, and 
Reid Wilson, executive director of the Conservation Trust for 
North Carolina. If you would please be seated?
    Before we start with Mr. Wenk for the administration's 
views on these bills, I want to observe a milestone, if I 
might, this afternoon. Whenever this subcommittee holds a 
hearing such as this one, much of the work in preparing not 
only the Park Service's testimony, but also for providing 
background information for the committee is handled by the Park 
Service's Office of Legislative Affairs, as Mr. Wenk well 
knows.
    I understand today is Beverly Davenport's final hearing 
prior to her retirement at the end of the month. She has been a 
key asset not only for the Park Service with her work in the 
Legislative Affairs Office. But Beverly, here to this committee 
itself, you have always been very helpful in quickly responding 
to requests for information and providing important background 
on many, many issues.
    So I want to note our appreciation for all your hard work 
and to wish you the very best in your retirement. I have a 
feeling this isn't the last we have seen of you, at least heard 
from you because I know this committee staff here is very, very 
appreciative of all that you have done, and I think they are 
probably going to get your phone number so they can continue to 
call on you.
    So we wanted to acknowledge you. Thank you. You make us 
proud.
    Mr. Wenk, welcome back to the subcommittee. We keep meeting 
like this, do we not, about every month, and please proceed 
with your statement.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Mr. Chairman, thank you for the recognition of 
Beverly Davenport and the work that she does, and thank you for 
the opportunity to appear before this subcommittee to present 
the Department of the Interior's views on the nine bills on 
today's agenda.
    I would like to submit our full statements on each of the 
subjects for the record and summarize our department's 
positions on these bills.
    S. 553 would revise the authorized route of the North 
Country National Scenic Trail in northeastern Minnesota to 
include existing hiking trails along Lake Superior's north 
shore and the Superior National Forest and Chippewa National 
Forest.
    The department supports enactment of S. 553 with 
2amendments to increase the overall length of the trail to 
4,600 miles and to revise the language that references the map 
for the revised route of the trail.
    S. 1017 would reauthorize the Cane River National Heritage 
Area Commission and expand the boundaries of Cane River 
National Heritage Area in the State of Louisiana. The 
department recommends that the committee defer action on S. 
1017 until program legislation is enacted that establishes 
guidelines and a process for the designation and administration 
of National Heritage Areas. The administration anticipates 
submitting such a legislative proposal to you in the near 
future, and we recommend enactment of this proposal during this 
Congress.
    S. 1018 would authorize the Secretary of Interior to enter 
into an agreement for constructing a facility on land owned by 
Northwestern State University that would help meet critical 
needs of 2 National Park Service entities--Cane River Creole 
National Historical Park and the Natchitoches National Center 
for Preservation Technology and Training.
    The department supports enactment of S. 1018 with 2 
amendments; to provide for a lease term of up to 40 years in 
order to provide maximum flexibility in amortizing the cost of 
the building and to provide the land at the university be 
leased at a nominal cost.
    S. 1537 would designate the Norman E. Borlaug birthplace 
and childhood home in Cresco, Iowa, as a national historic site 
and as a unit of the National Park System. The department 
supports the effort to honor Dr. Norman E. Borlaug, but 
suggests amending S. 1537 to authorize a study of his 
birthplace and childhood home rather than a designation.
    S. 1629 would direct the Secretary of Interior to conduct a 
study of the archeological site and surrounding land of New 
Philadelphia town site in the State of Illinois. The department 
supports enactment of S. 1629.
    S. 2892 would establish the Alabama Black Belt National 
Heritage Area in a part of the State known for its antebellum 
architecture and its role in the modern civil rights movement. 
The department recommends that the committee defer action on 
this legislation until National Heritage Area Program 
legislation is enacted and until the National Park Service 
completes its final review of the feasibility study for the 
proposed Alabama Black Belt National Heritage Area.
    S. 2933 would direct the Secretary of Interior to conduct a 
study to determine the suitability and feasibility of 
designating the Colonel Charles Young home in Xenia, Ohio, as a 
unit of the National Park System. The department supports 
enactment of S. 2933.
    S. 2951 would authorize funding to protect and conserve 
lands contiguous with the Blue Ridge Parkway. The department 
appreciates the strong interest in protecting scenic vistas 
along the Blue Ridge Parkway and the desire to have a major 
initiative for the parkway's 75th anniversary. However, the 
department does not support this legislation in its current 
form.
    We would welcome the opportunity to work with the committee 
and the bill's sponsors to develop a different approach toward 
promoting and incorporating the work of nonprofit conservation 
organizations in the protection of the parkway's scenic 
resources.
    H.R. 3804 addresses several issues that are important to 
the National Park Service, including authorizing 10-year 
extension to the National Park System Advisory Board and the 
National Park Concessions Management Advisory Board, 
standardizing the penalties for violations of NPS regulations 
at military parks and national historic sites, and authorizing 
an agreement between the National Park Service and other 
entities that administer historic sites at Pearl Harbor to 
conduct joint ticket sales.
    This legislation also contains several other needed 
authorities and some technical amendments to previously enacted 
legislation. The department supports H.R. 3804.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Wenk follows:]

 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior
                               h.r. 3804
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 3804, a bill to make technical corrections to various Acts 
affecting the National Park Service, to extend, amend, or establish 
certain National Park Service authorities, and for other purposes.
    The Department supports H.R. 3804, which addresses several issues 
that are important to the National Park Service (NPS). The Department 
testified in support of this bill before the House Subcommittee on 
National Parks, Forest and Public Lands in a hearing on November 5, 
2009. The bill passed the House on December 7, 2009. We will discuss 
each of the portions of the bill separately in this testimony.
    H.R. 3804 would authorize ten year extensions to the National Park 
System Advisory Board and the National Park Service Concessions 
Management Advisory Board. The bill also would standardize the 
penalties for violations of NPS regulations at military parks and 
national historic sites and would raise the ceiling for annual 
appropriations used to fund the Volunteers in the Parks Program. The 
bill would authorize the Secretary of the Interior (Secretary) to enter 
into an agreement with nonprofit organizations or other entities that 
manage or administer historic sites at Pearl Harbor and to allow the 
sale of tickets to those historic sites by NPS staff or employees of 
the organizations that administer the historic sites. In addition, H.R. 
3804 would authorize a land exchange to address a long-standing access 
issue on the George Washington Memorial Parkway and would amend the 
D.C. Snow Removal Act of 1922 to clarify which federal agency is 
responsible for clearing snow from sidewalks and crosswalks in front of 
or around public buildings in the District of Columbia. The Martin 
Luther King, Junior, National Historic Site would be redesignated as a 
National Historical Park and the boundary of the Lava Beds National 
Monument Wilderness would be adjusted. Finally, the bill would make 
technical corrections to laws for a national seashore, wild and scenic 
rivers, and national heritage areas.
Section 101--National Park System Advisory Board
    H.R. 3804 would extend the authorization for the National Park 
System Advisory Board to January 1, 2020. The Advisory Board was first 
authorized in 1935 under the Historic Sites, Buildings, and Antiquities 
Act. The Board advises the Director of the National Park Service 
(Director) and the Secretary on matters relating to the NPS, the 
National Park System, and programs administered by the NPS, including 
the administration of the Historic Sites, Buildings, and Antiquities 
Act; the designation of national historic landmarks and national 
natural landmarks; and the national historic significance of proposed 
national historic trails.
    The Advisory Board meets approximately twice yearly, at the call of 
the Director or the Director's designee. The NPS provides support for 
the Advisory Board and members are appointed on a staggered-term basis 
for terms not to exceed 4 years. The Advisory Board has been a valuable 
partner of the NPS, and we look forward to continuing this partnership 
in the coming years. After several one-year authorizations, the NPS 
supports the longer time extension for this important body.
Section 102--National Park Service Concessions Management Advisory 
        Board
    H.R. 3804 would also extend the authorization for the NPS 
Concession Management Advisory Board for ten years, to December 31, 
2019. The Concession Management Advisory Board was established on 
November 13, 1998 by Public Law 105-391, and is composed of seven 
members appointed by the Secretary. Advisory Board members must be 
United States citizens, and not employed by the Federal Government. 
Members are appointed on a staggered basis for terms not to exceed 4 
years.
    The Advisory Board's purpose is to advise the Secretary and the NPS 
on matters relating to the effective management of concessions in the 
National Park System. The Board helps make recommendations on ways to 
make the concession programs more cost effective, mitigate impacts of 
concession operations on park resources, improve visitor services, and 
allocate concession fees.
    Board members are experts in hospitality, tourism, accounting, 
outfitting and guide industries, parks concession management, 
traditional arts and crafts, and parks and recreation programs, and are 
selected for their expertise and area of professional skills in 
concessions management and oversight. The combination of the expert 
advice and the public forum that the Board offers provides a practical 
approach to consider contentious concession management topics and 
issues.
    Historically, the Board has held two to three public meetings 
annually. This board has also been continued by a one-year 
authorization and the NPS supports the longer term extension of this 
important body.
Section 103--Uniform Penalties
    Section 103 of H.R. 3804 addresses a lack of uniformity in the 
penalties for violating regulations throughout the National Park 
System. Having different penalties for violation of the same NPS 
regulation, in parks that originated as military parks or national 
historic sites is confusing and inappropriate. The NPS has recognized 
that the framework for penalties for violating regulations in these 
military parks and historic sites was derived from unique historic 
statutes enacted over 60 years ago. This disparity in penalties may 
undermine effective and uniform law enforcement and criminal 
prosecution for violations on parkland.
    H.R. 3804 would provide the necessary legislative authority to 
provide uniform, consistent penalties for NPS regulations, including in 
parks that originated as military parks or national historic sites. 
This would be accomplished by increasing the penalties for these sites 
from the current penalty of only a fine or a fine and/or incarceration 
up to three months to a fine and/or imprisonment up to six months as 
provided under the NPS Organic Act, 16 U.S.C. Sec.  3, and the long-
standing fine-enhancement provision of 18 U.S.C. Sec.  3571.
Section 104--Volunteers in the Parks
    H.R. 3804 would raise the ceiling for funding for the Volunteers in 
the Parks (VIP) program from $3.5 million to $10 million annually. In 
1970 the VIP program started with a few hundred volunteers. Today, 
there are more than 175,000 VIPs helping to preserve and protect our 
natural and cultural resources. More than 370 NPS areas currently use 
VIPs. Volunteers range in age from young children to senior citizens. 
They come from all over the United States, and the world, bringing 
different backgrounds, skills, and talents that enrich our park 
programs.
    The increase in the VIP ceiling proposed in H.R. 3804 is needed to 
more accurately reflect the resources that are being devoted to this 
popular program. Although the enacted levels for the VIP program were 
$2.794 million in FY 2009 and $2.797 million in FY 2010, expenditures 
for the program were $5.021 million in FY 2008 and $4.753 million (with 
a few expenditure reports outstanding) for FY 2009--the two most recent 
years for which data is available. With the President's and the 
Secretary of the Interior's emphasis on the importance of volunteerism, 
the increased ceiling would allow the NPS to recognize the benefits 
offered by our many volunteers each year.
Title II--Pearl Harbor Ticketing
    World War II Valor in the Pacific National Monument includes 11 
acres at Halawa Landing at Pearl Harbor and the USS Oklahoma Memorial 
across the harbor on Ford Island. The NPS and the U.S. Navy are 
developing an overarching Memorandum of Understanding to address 
cooperative management at Pearl Harbor.
    The Pearl Harbor Naval Base is a secure site. Halawa Landing sits 
outside the main gates of the Base, but still within the area for 
enhanced security, and visitors arrive by tour bus, public transit or 
private car. Access to Ford Island is permitted only by shuttle bus.
    In addition to the NPS's USS Arizona Memorial Visitor Center, there 
are two other Pearl Harbor partner-operated historic sites that are 
accessed through the NPS facility: the Battleship Missouri Memorial and 
the Pacific Aviation Museum. Visitors surrender all bags and luggage 
before entering the NPS facility to visit NPS sites or the partner-
operated sites. Currently, the other partner at Halawa Landing, the USS 
Bowfin Submarine Museum, requires visitors to store their bags in a 
separate secure facility.
    The NPS is in the midst of a $50 million replacement of the USS 
Arizona Memorial Visitor Center, at Halawa Landing. When completed, 
this new facility will include space for a ticket counter for the Pearl 
Harbor historic sites partners to sell their tickets, which will be 
adjacent to the NPS information and ticketing counter.
    Free admission to the USS Arizona Memorial is required by law. If 
H.R. 3804 is enacted, visitors would approach the NPS ticket booth at 
the entrance to the Visitor Center and receive a free, timed ticket to 
the USS Arizona Memorial. At the same time, visitors would be able to 
purchase all their tickets to other Pearl Harbor historic sites and 
plan their visit. H.R. 3804 would authorize NPS to work with our 
partners on a joint ticketing operation, and recover a reasonable fee 
to cover any administrative costs associated with such operation.
    Our partners at Pearl Harbor enhance visitor understanding and 
increase appreciation for World War II Pacific Theatre history. 
Entrance fees to Pearl Harbor historic sites are the partners' critical 
source of revenue for operations and allowing the sale of their tickets 
at the NPS visitor center supports the NPS's broader mission to tell 
the story of the Pacific Theater. Joint ticket sales would be the next 
step in enhancing the visitor experience and our partnership. For 
example, visitors waiting for the launch to the USS Arizona Memorial 
would have additional time to explore the USS Bowfin Museum, or start 
their tours on Ford Island, returning to board their launch to the USS 
Arizona Memorial.
    Section 121 of Public Law 111-88--The Department of the Interior, 
Environment and Related Agencies Appropriations Act, 2010, enacted on 
October 30, 2009, provides the same authority contained in Title II of 
H.R. 3804 regarding Pearl Harbor Ticketing for fiscal year 2010. 
However, the permanent authority provided by H.R. 3804 remains 
necessary.
Section 301--George Washington Memorial Parkway
    Section 301 of H.R. 3804 would address a long-standing access issue 
on the George Washington Memorial Parkway. The Claude Moore Colonial 
Farm (Farm) is a 68.5-acre working colonial farm, part of the 235-acre 
Langley Tract property that was transferred to the George Washington 
Memorial Parkway in 1971 to provide public recreation and open space. 
The greenhouses, administrative offices, staff parking, a storage area 
for Farm equipment, and animal pens are located in the administration 
and maintenance area of the Farm. Colonial Farm Road forms the eastern 
boundary between the Langley Tract and the Farm and provides the main 
public access to the Farm from Georgetown Pike. In addition to 
providing Farm access, Colonial Farm Road serves as an entrance road to 
the Federal Highway Administration's Turner-Fairbank Highway Research 
Center (Research Center) and the George Bush Center for Intelligence 
(CIA).
    The three federal agencies have discussed concerns about crossing 
property lines, the need to have uninterrupted access to their 
properties, and the need to improve security (visibility) near 
perimeter fencing of the Research Center. They have identified 
properties suitable for exchange that would provide access to the 
Farm's administrative and maintenance area and the means to improve 
security outside the fencing of the Research Center and CIA acceptable 
to NPS standards.
    H.R. 3804 would authorize the transfer of administrative 
jurisdiction of land between the NPS and the Federal Highway 
Administration to provide the NPS with a separate access road in the 
administration and maintenance area for the Farm that will not go 
through the Research Center. In exchange, NPS would provide the Federal 
Highway Administration with a visible buffer on parkland outside the 
perimeter fence of the Research Center. NPS would also place use 
restrictions on another parcel of land to improve security of the 
Research Center.
Section 302--DC Snow Removal
    Section 302 of H.R. 3804 addresses snow removal within the District 
of Columbia. The Chief of Engineers of the U.S. Army was originally 
given responsibility for snow removal on sidewalks in front of all 
buildings owned or leased by the United States (except the Capitol 
grounds and the Library of Congress) and from all sidewalks or 
crosswalks used as public thoroughfares in and around all public 
squares, reservations, or open spaces within the fire limits of the 
District of Columbia. In 1925, the duties of the Chief of Engineers 
were transferred to the Director of Public Buildings and Public Parks 
of the National Capital, and subsequently to the NPS.
    The NPS has not removed snow from the sidewalks of non-NPS 
buildings and lots for more than thirty years. Instead, the respective 
federal agency has taken responsibility for snow removal on public 
thoroughfares or on sidewalks or crosswalks in front of buildings that 
are owned or leased by the United States and are under such agency's 
administrative jurisdiction. The General Services Administration (GSA), 
which operates, protects, and maintains most government-owned and 
leased buildings and grounds in the District of Columbia, has 
regulations at 41 CFR Part 102-74 providing that GSA maintains and 
repairs such sidewalks and that snow removal is part of its complete 
facility maintenance schedule. The D.C. Snow Removal Act of 1922 was 
never amended, however, to reflect the effective change in 
responsibility.
    H.R. 3804 would amend the D.C. Snow Removal Act of 1922 to clarify 
that each federal agency would be responsible for property owned by the 
United States and under that agency's administrative jurisdiction, 
including snow removal. This would make the law consistent with modern 
snow removal practices and would change the time period for snow 
removal to reflect the realities of street snow removal where plows 
usually clear the streets by pushing snow onto the adjacent sidewalks, 
and where additional time is necessary to remove it. The legislation 
also would allow for the duty of a federal agency to be delegated to 
another governmental or non-governmental entity through a lease, 
contract, or other comparable arrangement. If two federal agencies have 
overlapping responsibility for the same sidewalk, the bill would 
provide the authority for the agencies to enter into an arrangement 
assigning responsibility.
Section 303--Martin Luther King, Jr. National Historical Park
    H.R. 3804 would redesignate the Martin Luther King, Junior, 
National Historic Site as a National Historical Park to reflect its 
multiple properties and broad themes, and provide a new map reference 
for the park, which reflects the proposed name change and indicates a 
land exchange that occurred in 2004.
Section 304--Lava Beds National Wilderness Boundary Adjustment
    H.R. 3804 would correct errors in the 1972 law that designated 
wilderness at Lava Beds National Monument. Through the substitution of 
a new wilderness boundary map, certain improved areas would be excluded 
from wilderness and other areas that are appropriate for designation 
would be included.
    Adding and subtracting parts of the two wilderness areas would 
produce a net increase of 399 acres in the actual amount of designated 
wilderness. Although the 1972 law provides for about 10,000 acres of 
wilderness in the Black Lava Flow area and about 18,460 in the 
Schonchin Lava Flow area, a 1993 survey that used Geographic 
Information Systems (GIS) and a map produced by the U.S. Geological 
Survey found that the actual acreage in the two wilderness areas is 
10,125 and 17,936 respectively. The proposed legislation would provide 
for about 10,431 acres within the Black Lava Flow area and about 18,029 
acres in the Schonchin Lava Flow area, and the map referenced in H.R. 
3804 depicts two wilderness areas with the same amount of acreage as 
those two figures indicate. Added together, the acreage of the two 
wilderness areas would be the same total amount (28,460) that Congress 
intended to designate in the 1972 law, only distributed differently 
between the two areas and measured more accurately.
    This proposal is consistent with Lava Bed National Monument's 1996 
General Management Plan and 2006 Wilderness Stewardship Plan. The only 
costs anticipated from this proposal would be for signs and maps, which 
would be negligible.
Other Provisions
    Finally, Title IV of H.R. 3804 would make technical corrections to 
several acts that involve a national seashore, wild and scenic rivers, 
and national heritage areas addressing a number of small issues for 
various parks that have been needed for a long time. We look forward to 
working with you for their enactment.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the Subcommittee may 
have.
                                 s. 553
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 553, a bill to revise the authorized route of 
the North Country National Scenic Trail in northeastern Minnesota to 
include existing hiking trails along Lake Superior's north shore and in 
Superior National Forest and Chippewa National Forest.
    The Department supports enactment of S. 553 with two amendments 
described later in this statement. This legislation would amend section 
5(a)(8) of the National Trails System Act to revise the route of the 
North Country National Scenic Trail in northeastern Minnesota and 
increase the overall length of the trail to 4,600 miles. This reflects 
current measurements of the trail's length plus the additional 400 
miles of the revised route in northeastern Minnesota. The bill includes 
the reference for a map that would depict the revised route of the 
trail.
    The North Country National Scenic Trail was authorized by Congress 
in 1980 to provide superlative outdoor recreation opportunities and 
conservation of nationally significant scenic, historic, natural and 
cultural qualities along the trail corridor, to provide a premier 
hiking trail facility, and to encourage and assist volunteer citizen 
involvement in the planning, development, maintenance and management of 
the trail. The National Park Service (NPS) administers this trail. The 
comprehensive management plan for the trail was issued in 1982.
    The authorized route of the trail in northeastern Minnesota 
traverses more than 70 miles of black spruce and tamarack swamp, 
extending westward from Jay Cooke State Park, south of Duluth, to the 
Chippewa National Forest, southwest of Grand Rapids. Because of the 
location and difficult environmental conditions within the swamp, no 
portion of this section of the trail has been constructed. The proposed 
revised route uses three existing hiking trails all developed or 
redeveloped by volunteers since the Comprehensive Management Plan for 
the North Country Trail was written. These trails, totaling over 300 
miles of existing hiking trail, follow the north shore of Lake Superior 
and traverse the Boundary Waters Canoe Area Wilderness in the Superior 
National Forest, a region of the state known locally as the 
``Arrowhead.'' The proposed change has become known in the North 
Country Trail community as the ``Arrowhead Reroute.''
    Since 1987, Minnesota hiking groups have requested the NPS to study 
the revised route and consider their recommendation for a change due to 
the location and the existing environmental conditions of the present 
segment. As a result, the NPS conducted the Northeastern Minnesota 
Route Assessment between 1999 and 2004. This study evaluated and 
compared two routes-the one authorized by Congress in 1980 and the 
Arrowhead Reroute. In 2003 and 2004 public meetings were held in 
Duluth, Ely, Grand Rapids, and Minneapolis, Minnesota. No comments 
opposing the proposed change in the route were received, either at the 
public meetings or by mail or email during the widely-publicized public 
comment period. The plan and environmental assessment was approved by 
the NPS Midwest Regional Director on September 30, 2004. The National 
Trails System Act states that segments of a national scenic trail may 
be relocated upon a determination that the relocation is necessary to 
preserve the purposes of the trail and to promote a sound land 
management program. The authorized route through 70 miles of densely 
wooded wetlands does not provide a superlative outdoor recreation 
experience. To provide a premier hiking experience and preserve the 
landscape would require the construction of many miles of boardwalk in 
order to successfully traverse those wetlands. This factor alone has 
not and will not encourage volunteers to become involved in 
establishing that route.
    In stark contrast, the revised Arrowhead Reroute connects 
nationally significant natural, cultural, and recreational resources 
with outstanding scenery that epitomizes the ``North Country'' and has 
already encouraged volunteers to become involved in planning, 
developing, maintaining, and managing trails. Additionally, the 
relocation promotes a sound land management program, using established 
trails and proposing additional trail segments that are appropriately 
located and managed in accordance with established multiple use 
principles.
    Approximately three-quarters of the Arrowhead Reroute already 
exists, having been built as part of the three existing hiking trails-
the Superior Hiking Trail, Border Route Trail, and Kekekabic Trail. New 
sections that would need to be constructed to complete the reroute in 
the Chippewa and Superior National Forests, Minnesota state parks and 
forests, and county-owned lands would be reviewed for environmental 
impacts on critical habitat, endangered species, wetlands, and cultural 
resources. Where no public land exists, the trail would be developed on 
private property but only with the owners' permission and support.
    There is strong support for the trail relocation among public 
agencies and jurisdictions. The Minnesota Department of Natural 
Resources (DNR) has been a strong proponent of the relocation since the 
late 1980s. Also, the supervisors of the Superior National Forest and 
the Chippewa National Forest have indicated their support for the 
proposed relocated route. Local governments in Duluth, Ely, and Grand 
Rapids have been supportive.
    Duluth and St. Louis County have already approved the extension of 
the Superior Hiking Trail across city and county parkland to connect 
Jay Cooke State Park to the south with Two Harbors to the north, the 
former southern terminus of the Superior Hiking Trail. More than 39 
miles of new trail have been built in the city along with six 
additional miles between Duluth and Two Harbors. Recently, one city 
along the authorized route voiced opposition because they will no 
longer be on the official route-a route that is environmentally 
unfeasible. However, they did not voice this opposition during the 
study and public comment period back in 2004.
    The North Country Trail Association and the Parks and Trails 
Council of Minnesota are committed to developing the connecting trail 
segments that will be needed between Ely and the Chippewa National 
Forest. The Council has pledged not only the workers to build and 
maintain the trail, but also the effort and funding needed to secure 
private lands. The NPS anticipates the cost of adding this route and 
constructing a footpath to be very low. The construction would be done 
primarily by volunteers using hand tools. Current NPS staff would 
provide route planning and support for the volunteers who help develop 
and maintain the path. Funding would be needed to supply trail markers, 
signage, tools, equipment, and materials to the volunteers for the 400 
additional miles of trail. The average cost is estimated to be $100 per 
mile per year, or $40,000 per year.
    The portions of the North Country Trail reroute yet to be built 
have not been laid out in detail. No specific landowners have been 
identified or contacted. Rather, the route assessment (study) 
identified a corridor several miles wide within which the trail will 
eventually be laid out. This will allow the NPS and its partners to 
design a route that will minimize the amount of private land involved 
and to work with landowners on a voluntary basis-if one landowner is 
not interested in having the trail on his property, perhaps a neighbor 
will be amenable. Consequently, no estimates of land acquisition costs 
have been developed.
    Up until March 30, 2009, the Federal government was prohibited from 
spending funds to acquire lands for the North Country National Scenic 
Trail outside the exterior boundaries of existing Federal areas. 
However, Federal funds could be granted to others to assist them in 
acquiring these lands. In FY 2000 Congress directed the NPS to grant 
$500,000 from the Land and Water Conservation Fund to the state of 
Wisconsin for acquisition of lands for the North Country Trail. Public 
Law 111-11, the Omnibus Public Land Management Act of 2009, provides 
authority for Federal agencies to acquire lands or interests in lands 
from willing sellers for the North Country National Scenic Trail.
    We recommend that S. 553 be amended to increase the overall length 
of the trail to 4,600 miles and to insert language reflecting the 
revised map. The proposed amendments are attached to this testimony.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members of the subcommittee may 
have.
    Suggested amendments to H.R. 481
    On page 4, line 3 strike ``SEC. 3'' and all that follows through 
line 17 and insert the following:

          SEC. 3. ROUTE REAUTHORIZATION.
                  Section 5(a)(8) of the National Trails System Act (16 
                U.S.C. 12244(a)) is amended as follows:

                  (1) strike ``thirty-two hundred miles'' and insert 
                ``forty-six hundred miles'', and
                  (2) strike ``Proposed North Country Trail'' through 
                ``June 1975'' and insert ```North Country National 
                Scenic Trail, Authorized Route', dated February 16, 
                2005, and numbered 649/80,002.''
                                s. 1017
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1017, a bill to reauthorize the Cane River National Heritage Area 
Commission and expand the boundaries of Cane River National Heritage 
Area in the State of Louisiana.
    The Department recommends that the committee defer action on S. 
1017 until program legislation is enacted that establishes guidelines 
and a process for the designation and administration of national 
heritage areas. The Administration anticipates submitting such a 
legislative proposal to you in the near future and we recommend that 
Congress enact national heritage area program legislation this 
Congress. The Administration's FY 2011 Budget proposes to reduce 
funding for national heritage areas to focus resources on those park 
activities that most closely align with its core mission and encourage 
areas to become self-sufficient, consistent with a FY 2010 
Congressional directive.
    Cane River National Heritage Area in northwestern Louisiana was 
established in 1994 as a complementary designation to the Cane River 
Creole National Historical Park, which was established at the same 
time. The national heritage area was intended to assist in 
preservation, ensure cultural sensitivity, and minimize the need for 
federal land acquisition. The heritage area is known for its historic 
plantations, Creole architecture, and complex multi-cultural legacy. 
The area is home to a unique blend of French, Spanish, African, 
American Indian, Creole, and other cultures. It is an extraordinarily 
significant area because the cultures that shaped the Cane River region 
in the 1700s remain there today, which is rare in the United States.
    S. 1017 would reauthorize the Cane River National Heritage Area 
Commission through 2025. Under current law, the commission, which 
serves as the local coordinating entity for the Cane River National 
Heritage Area, is scheduled to terminate on August 5, 2010. The 
commission operates in accordance with the heritage area management 
plan that was completed in 2003 and approved by both the Governor of 
Louisiana and the Secretary of the Interior. It is currently overseeing 
numerous projects and programs including a successful signage and 
wayfinding program, preservation of National Historic Landmarks and 
national register properties, development of a military heritage 
assessment and tour focusing on Civil War sites in preparation for the 
Civil War sesquicentennial, and teacher workshops on Creole history and 
culture.
    Under S. 1017, the composition of the Cane River National Heritage 
Area Commission would be modified to reflect current conditions. The 
heritage area's 1994 enabling legislation identified specific entities 
for representation on the commission. In some cases, those entities 
have evolved into other organizations. In addition, in order to allow 
commission representation of the entire range of cultural and landowner 
interests, as intended in the original legislation, the number of 
members would be increased from 19 to 23.
    S. 1017 would also expand the boundaries of the Cane River National 
Heritage Area to include all of Natchitoches Parish west of the Red 
River. This change would add significant cultural and natural 
resources, including Spanish Colonial, Native American, U.S. military 
and westward expansion sites. Among the resources that would be 
included are original trail ruts of El Camino Real de los Tejas, the 
Spanish Colonial trade route stretching from Natchitoches to Mexico 
City that is now a designated national historic trail.
    If the committee decides to take further action on S. 1017, there 
are two issues we would like to call to your attention. One is the 
length of the existence of the commission. The 1994 authorizing 
legislation for the heritage area envisioned the transition of 
management from a Secretarial-appointed commission to another entity 
within 10-15 years. S. 1017 would allow that transition to be postponed 
for as long as 15 years, until 2025. Consistent with the idea that 
national heritage areas should be locally driven, nearly all other 
national heritage areas that were first established with a federal 
commission as the managing or coordinating entity have transitioned to 
a non-federal coordinating entity, usually a non-profit organization. 
That process is underway at Cane River where a non-profit organization 
that could serve as the local coordinating entity is currently being 
developed.
    The other issue is the authorization of appropriations. The 1994 
enabling legislation authorized unlimited appropriations with no sunset 
date and no matching fund requirement, for the Cane River National 
Heritage Area. Congress has held most other national heritage areas to 
authorized funding of $10 million over 15 years in the initial heritage 
area designation, and required matching funds from other sources.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.
                                s. 1018
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1018, a bill to authorize the Secretary of the Interior to enter 
into an agreement with Northwestern State University in Natchitoches, 
Louisiana, to construct a curatorial center for the use of Cane River 
Creole National Historical Park, the National Center for Preservation 
Technology and Training, and the university, and for other purposes.
    The Department supports S. 1018 with amendments described later in 
this statement. This legislation would authorize an agreement for 
constructing a facility on land owned by Northwestern State University 
that would help meet critical needs of the National Park Service. The 
facility would be known as the Collections Conservation Center.
    Located along the Cane River in Natchitoches Parish, Louisiana, 
Cane River Creole National Historical Park was established by Congress 
in 1994 to preserve the distinctive architecture and cultural 
landscapes of the only two, intact French Creole plantations in the 
United States, and to interpret the complex multicultural history of 
the Cane River area. The park preserves and protects a total of 67 
historic structures at two locations, Magnolia Plantation and Oakland 
Plantation. Cane River Creole National Historical Park also contains a 
nationally significant museum collection estimated at more than one 
million objects, which represent all aspects of French Creole 
plantation life from the 1700s until the end of the plantation era. 
Most artifacts are stored in a former bar and restaurant, which is the 
only space available for lease. Other artifacts are stored in a three-
sided historic tractor shed, which is located in the park. Present care 
and storage of these resources do not meet National Park Service museum 
standards. Consequently, precious museum objects are at risk of being 
exposed to inadequate temperature and humidity controls, periodic roof 
leaks, insect infestation, theft, and vandalism. A new state-of-the-art 
curatorial center would address these problems and was discussed in the 
park's 2001 General Management Plan and its 2003 Museum Collection 
Management Plan.
    The National Center for Preservation Technology and Training is a 
research division of the National Park Service that was authorized 
under a 1992 amendment to the National Historic Preservation Act. It is 
located on the campus of Northwestern State University. In fulfilling 
its mission, the center conducts innovative conservation and 
collections management research and advances the use of science and 
technology in the field of historic preservation. The center has 
minimal laboratory space to conduct its work and is in need of 
additional space to house its laser conservation laboratory and 
materials research program.
    Northwestern State University's Williamson Museum houses an 
archaeological and ethnological museum collection related to the 
Southeastern Tribes of the United States. Frequently used by tribal 
members for research on cultural traditions, the museum also serves as 
a gathering place for tribes and the public during special events. The 
museum collection is currently inadequately housed and is inaccessible 
to school groups because of its location in a college classroom 
building that has no available bus parking nearby.
    Northwestern State University has available land that would be 
suitable for a structure that serves the purposes of the proposed 
Collections Conservation Center. The university is willing to 
contribute the use of the land for the center under the condition that 
the new center includes enough space to house its Williamson Museum 
collection, contingent on the approval of the Board of Supervisors for 
the University of Louisiana System. The anticipated cost to construct 
the center is approximately $12.5 million. Funding to build and operate 
the center would be subject to the availability of appropriations and 
NPS priorities.
    The land is above the 500-year floodplain, which is the level 
required for constructing curatorial facilities under National Park 
Service policies. It is also close to the building on campus used by 
the National Center for Preservation Technology and Training and it is 
about two miles away from the Cane River Creole National Historical 
Park headquarters. The authority for an agreement between the 
university and the National Park Service for a facility on the 
university's campus would be another facet of the close relationship 
between the two entities that was envisioned both in the enabling 
legislation for the preservation center, which provides for the center 
to be established on the university's campus, and in the enabling 
legislation for the park, which provides for a research program to be 
coordinated with the preservation center and the university.
    We recommend that the bill be amended to provide for a lease term 
of up to 40 years in order to provide maximum flexibility in amortizing 
the cost of the building, and to provide that the land at the 
university be leased to the National Park Service at nominal cost. We 
would be happy to work with the committee to provide appropriate 
language for those and other amendments. Mr. Chairman, this concludes 
my prepared remarks. I would be pleased to answer any questions you or 
any members of the Subcommittee may have.
                                s. 1537
    Mr. Chairman, thank you for the opportunity to testify on S. 1537, 
a bill to authorize the Secretary of the Interior, acting through the 
Director of the National Park Service, to designate the Dr. Norman E. 
Borlaug Birthplace and Childhood Home in Cresco, Iowa, as a National 
Historic Site and as a unit of the National Park System.
    The Department supports the effort to honor Dr. Norman E. Borlaug, 
but would like to work with the committee to amend S. 1537 to authorize 
a study of his birthplace and childhood home instead of designating it 
at this time as a new Park Service unit.
    S. 1537 would authorize the Secretary of the Interior to designate 
the Dr. Norman E. Borlaug Birthplace and Childhood Home as a National 
Historic Site if the Secretary acquires fee simple and unencumbered 
title to the Norman E. Borlaug property by donation from the Norman 
Borlaug Heritage Foundation. The Secretary would administer the unit in 
accordance with laws generally applicable to preserving national 
historic sites.
    The homes and sites of renowned American scientists, artists and 
humanitarians provide a valuable link to understanding our country's 
history and achievements and are an important part of our national 
heritage. Dr. Norman E. Borlaug's scientific and humanitarian 
achievements certainly place him in this illustrious group.
    Norman Borlaug grew up on a family farm outside of Cresco, Iowa. He 
was a strong and vigorous young man who could perform prodigious 
amounts of manual labor in the fields and used this strength as a 
competitive, trained athlete in his high school and college days. He 
was always interested in agriculture and felt the need to help the poor 
in the world. His interests and work led him to become one of the 
greatest humanitarians of all times.
    Dr. Borlaug was a central figure in the ``green revolution.'' 
During the 1960s over a period of four years, he was instrumental in 
helping farmers in India increase wheat production by an order greater 
than that achieved during the preceding 4,000 years. He also enabled 
developing countries to move toward achieving a balance between 
population growth and food production.
    Dr. Borlaug received the Nobel Peace Prize in 1970 for his 
accomplishments in India and Pakistan and for his role as the ``Father 
of the Green Revolution'', the only person working in agriculture to 
ever be so honored. Since then, he has received numerous honors and 
awards, including the Presidential Medal of Freedom and the Public 
Service Medal. He created the World Food Prize in 1986, which is the 
Nobel Prize for Food and Agriculture. The headquarters of the World 
Food Prize is located in Des Moines, Iowa. The life and achievements of 
Dr. Norman E. Borlaug have contributed extensively to alleviating world 
hunger in countries such as Canada, India, Mexico, Latin America, 
Norway, Pakistan, and the United States.
    The purchase and restoration of the birthplace and 106-acre 
childhood home and farm is being undertaken by the Norman Borlaug 
Heritage Foundation, a non-profit organization, formed to promote Dr. 
Borlaug's lifetime achievements and philosophy through education 
programs and projects at Dr. Borlaug's birthplace, childhood home, and 
one-room schoolhouse.
    The National Park System includes many previous residences of 
distinguished Americans such as Benjamin Franklin, Clara Barton, and 
Thomas Edison. However, there are also many residences of distinguished 
Americans that are not part of the system. A study would look at 
whether the Federal government is the most appropriate entity to manage 
the site. Conducting a professional study allows Congress to be sure it 
is protecting an area that meets the criteria for inclusion into the 
National Park System.
    With respect to historical sites, a study would not only look at 
whether the event or person associated with the site was historically 
significant, but it would also look at the integrity of the buildings, 
and other factors, such as whether there are other sites that might 
more appropriately tell the story associated with a particular 
individual.
    A study also will enable the NPS and the Congress to identify the 
costs in acquiring, restoring, and operating a potential site. We 
believe the information gathered during the study process is invaluable 
and better ensures the NPS can continue its progress in addressing 
deferred maintenance and other needs in our national parks amidst 
financial challenges.
    We recommend that the subcommittee amend S. 1537 to authorize a 
study of the Borlaug home, farm, and one-room school house to determine 
whether they conform to the criteria for potential new units of the 
National Park System. We estimate the cost of the study to be 
approximately $250,000 to $300,000. We would be glad to work with the 
subcommittee on the appropriate language. We do note that at present 
there are already 47 previously authorized studies for potential units 
of the National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic River System that have not yet been transmitted to the Congress.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other subcommittee members might have.
                                s. 1629
    Mr. Chairman, thank you for the opportunity to appear before you to 
provide the Department of the Interior's views on S. 1629, a bill to 
authorize the Secretary of the Interior to conduct a special resource 
study of the archeological site and surrounding land of the New 
Philadelphia town site in the State of Illinois.
    The Department supports enactment of S. 1629. However, we believe 
that priority should be given to the 47 previously authorized studies 
for potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    S. 1629 authorizes a special resource study to evaluate the 
national significance of New Philadelphia, Illinois, and to determine 
the suitability and feasibility of designating the site as a unit of 
the National Park System. The bill directs the Secretary in the course 
of the resource study to consider alternatives for the preservation, 
protection and interpretation of New Philadelphia, Illinois, by 
Federal, State or local government entities or any other interested 
individuals, and to identify the costs estimates for any Federal 
acquisition, development, interpretation, operation and maintenance 
associated with the range of management alternatives. We estimate the 
cost of the resource study to range from $200,000 to $300,000, based on 
similar types of studies conducted in recent years.
    New Philadelphia, located near Barry, Illinois, was founded in 1836 
by Frank McWhorter, an enslaved man from Kentucky, who bought his own 
freedom and the freedom of 15 family members. New Philadelphia is the 
first known town platted and officially registered by an African 
American before the Civil War. The rural community situated near the 
Mississippi and Illinois Rivers flourished at first, but later fell in 
decline when the railroad bypassed the community in 1869; it was 
eventually dissolved in 1885. The site of New Philadelphia, an 
archeological site with no visible above-ground evidence, was 
designated a National Historic Landmark on January 16, 2009.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions that you or other committee members may 
have regarding this bill.
                                s. 2892
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 2892, a bill to establish the Alabama 
Black Belt National Heritage Area, and for other purposes.
    The Department recommends that the committee defer action on S. 
2892 until program legislation is enacted that establishes criteria to 
evaluate potentially qualified national heritage areas and a process 
for the designation and administration of these areas. The 
Administration anticipates submitting such a legislative proposal to 
you in the near future, and we recommend that Congress enact national 
heritage area program legislation this Congress. In addition, we 
recommend deferring action on S. 2892 until the National Park Service 
completes its final review of the feasibility study for the proposed 
Alabama Black Belt National Heritage Area. The Administration's FY 2011 
Budget proposes to reduce funding for national heritage areas to focus 
resources on those park activities that most closely align with its 
core mission and encourage areas to become self-sufficient, consistent 
with a FY 2010 Congressional directive.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation was 
introduced in the 109th and 110th Congresses, and we look forward to 
continuing to work with Congress on this very important issue.
    The feasibility of the Alabama Black Belt area for designation as a 
national heritage area is the subject of a study now being finalized by 
the Alabama Black Belt Heritage Area Task Force. Since the creation of 
the task force in 2006, it has grown from a group of ten people into an 
active organization with over 65 members across 19 counties. The 
organization has worked closely with the National Park Service and the 
Alliance of National Heritage Areas to demonstrate a strong basis for 
seeking potential national heritage area status. The task force has 
also implemented several successful projects in the Black Belt region.
    The draft feasibility study includes an extensive inventory of 
cultural and natural resources of the region; identifies four 
interpretive themes; describes the plans for management, preservation, 
and interpretation of the region; and, contains a detailed 
environmental assessment. It indicates that the proposal for a national 
heritage area has strong support from the public and a myriad of state, 
local, federal, and non-governmental partners throughout the area that 
are essential for successful planning and implementation of a national 
heritage area. It recommends that the Center for the Study of the Black 
Belt at the University of West Alabama serve as the local coordinating 
entity for the proposed national heritage area, as provided for in S. 
2892. The center was identified as the preferred management entity 
based on its ability to provide a sustainable foundation for the 
implementation of a national heritage area, promote an integrated 
vision and leadership, engage ongoing community participation, build 
reciprocal partnerships, and facilitate programs across all 19 counties 
included in the proposed Alabama Black Belt National Heritage Area.
    Geographically, Alabama's Black Belt is part of a larger crescent-
shaped area known as the Southern Black Belt, which extends from 
Virginia to Texas. The term refers to the fertile black soil of the 
region. This soil drew pioneers to settle the lower-central portion of 
Alabama in the 1820s and 1830s where they established and operated a 
network of cotton plantations using the labor of enslaved African 
Americans.
    During the Antebellum era, the Alabama Black Belt became one of the 
wealthiest and most politically powerful regions in the United States. 
Thriving commerce elevated Montgomery, Selma, and Demopolis into some 
of the nation's most affluent towns. The architecture that grew out of 
this plantation culture produced some of the finest churches and rural 
residences in the state, including Rosemount and Thornhill in Greene, 
Countryside in Camden, and Gaineswood in Demopolis. When the Civil War 
began, Montgomery was chosen as the first capital of the Confederacy. 
The region's distance from the front lines saved it from much of the 
ravages of the war.
    During the Twentieth Century, this area gained fame as the site 
where the Tuskegee Airmen trained during World War II, and as a center 
of the civil rights movement in the 1950s and 1960s. Montgomery County 
was the site of the 1955-56 bus boycott that challenged segregation of 
public transportation. Highway 80 in Dallas, Lowndes, and Montgomery 
counties shaped the route taken by participants of the historic march 
for equal rights from Selma to Montgomery in 1965. The Lowndes County 
Freedom Organization, later the Black Panther Party, was an outgrowth 
of that march.
    Rivers and streams from several large basins-the Sipsey-Warrior, 
Coosa-Tallapoosa, Alabama-Cahaba, Tombigbee, and Chattahoochee-flow 
through the Alabama Black Belt. When cotton was the dominant crop grown 
in the region, the Black Belt's many navigable waterways enabled 
growers to transport their harvests to the docks in Mobile for shipment 
abroad. Row crops are less prevalent today as more of the rural Black 
Belt land today is now used for livestock or aquaculture.
    While largely viewed as a region of hardship, the Alabama Black 
Belt has produced a rich variety of artists, musicians, writers, and 
other public figures. Notable figures from this region include Booker 
T. Washington, Rosa Parks, Harper Lee and Truman Capote. Three sites in 
the region managed by the National Park Service commemorate nationally 
significant history: the Tuskegee Airmen National Historic Site and the 
Tuskegee Institute National Historic Site, both units of the National 
Park System, and the Selma to Montgomery National Historic Trail.
    If the committee decides to move forward with S. 2892, we would 
like to work with the committee to provide the appropriate map 
reference for the national heritage area and to ensure that the 
language of the bill is consistent with previously enacted national 
heritage area designations.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.
                                s. 2933
    Mr. Chairman, thank you for the opportunity to appear before you to 
provide the Department of the Interior's views on S. 2933, a bill to 
authorize a special resource study to determine the suitability and 
feasibility of designating the Colonel Charles Young Home in Xenia, 
Ohio, as a unit of the National Park System.
    The Department supports enactment of S. 2933. However, we believe 
that priority should be given to the 47 previously authorized studies 
for potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    S. 2933 authorizes a special resource study, in consultation with 
the Secretary of the Army, to determine the suitability and feasibility 
of designating the Colonel Charles Young Home as a unit of the National 
Park System, and to consider other alternatives for preservation and 
protection of the home and interpretation of the life and 
accomplishments of Colonel Young for future appreciation by the public. 
The bill also authorizes consultation and collaboration with the Ohio 
Historical Society, Central State University, Wilberforce University 
and other interested Federal, State or local governmental entities, 
private and nonprofit organizations or individuals in accomplishing the 
resource study. The home is a National Historic Landmark. We estimate 
the cost of this study to range from $200,000 to $250,000, based on 
similar types of studies conducted in recent years.
    Colonel Charles Young was the third African-American to graduate 
from West Point, and a distinguished African-American officer in the 
United States Army, commanding troops in combat in the Spanish-American 
War and the Mexican expedition against Pancho Villa. Colonel Young was 
one of the first military attaches in the United States, serving in 
Haiti and Liberia, and a pioneer of techniques in military 
intelligence. The experience of Colonel Young in the Army between 1884 
and 1922 illustrates the changing nature of race relations in the 
United States during a period spanning from the end of the Civil War to 
the beginning of the Civil Rights movement.
    Colonel Young was a friend and associate of other distinguished 
African-Americans of the period, including poet Paul Laurence Dunbar 
from nearby Dayton, Ohio; and as the commander of an Army unit assigned 
to protect and develop Sequoia National Park and General Grant National 
Park in the State of California, Colonel Young is recognized as the 
first African-American to be the superintendent of a National Park.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions that you or other Committee members may 
have regarding this bill.
                                s. 2951
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2951, a bill to authorize funding 
to protect and conserve lands contiguous with the Blue Ridge Parkway to 
serve the public, and for other purposes.
    The Department appreciates the strong interest in protecting scenic 
vistas along the Blue Ridge Parkway and the desire to have a major 
initiative for the parkway's 75th anniversary that the introduction of 
S. 2951 demonstrates. The magnificent views and recreational 
opportunities along the 469-mile parkway are the major reason why the 
parkway has long been the National Park Service's most heavily visited 
unit. However, the Department does not support this legislation in its 
current form. We would welcome the opportunity to work with the 
committee and the bill's sponsors to develop a different approach 
toward promoting and incorporating the work of nonprofit conservation 
organizations in the protection of the parkway's scenic resources.
    We are sympathetic to the desire of supporters of the Blue Ridge 
Parkway to find a mechanism to quickly channel land acquisition funds 
to protect the stunning views and the recreational opportunities that 
are so highly valued by visitors to the parkway. The parkway has 
identified a number of land acquisition goals in its Land Protection 
Plan that, along with the lands adjacent to the parkway threatened by 
encroaching development, could easily add up to the 50,000 acres 
envisioned to be protected under S. 2951.
    Other units of the National Park System have also identified 
opportunities for land acquisition to protect resources from 
encroaching development. The Administration proposes to begin 
addressing these needs with a request in the FY 2011 budget of $106 
million for National Park Service land acquisition-a significantly 
larger amount than has been requested or appropriated for many years. 
The FY 2011 request is the first step toward the Administration's goal 
of providing a total of $900 million a year--full funding--for federal 
land acquisition and other programs funded through the Land and Water 
Conservation Fund, and it holds the hope that within a few years we 
will be able to better address the needs at many more of our units, 
including the Blue Ridge Parkway.
    As desirable as it would be to acquire more land at the Blue Ridge 
Parkway, we find the approach taken by S. 2951 problematic, as it would 
duplicate existing law in some instances and establish new law that 
would not be appropriate in others. It would also conflict with the 
Administration's specific land acquisition priorities for FY 2011.
    Section 4 of S. 2951 would authorize the Secretary of the Interior 
to acquire up to 50,000 acres of adjacent land that is identified in 
the parkway's Land Protection Plan or that meets the plan's amendment 
criteria. However, the authority to acquire lands contiguous to the 
parkway already exists; therefore this language is unnecessary.
    Section 5(a) would authorize appropriations of $15 million for each 
of fiscal years 2011 through 2015 for the land acquisition authorized 
by this bill. As with section 4, this subsection is unnecessary because 
unlimited authority for appropriations for land acquisition at the 
parkway already exists.
    Although subsection 5(a) may be viewed as sending a message that 
Congress desires that $15 million a year for five years be appropriated 
for the parkway, we note that such funding is not included in the 
Administration's FY 2011 budget request. Although we cannot predict 
what the Administration might request for specific land acquisition 
projects for the next four years, it would be unusual, even with higher 
overall levels of land acquisition funding, to request this much for 
one park. Any request for this park would be subject to the 
Administration's prioritization process that uses consistent and merit-
based criteria to select projects.
    Section 5(b) would authorize the Secretary to use funds 
appropriated for land acquisition at the Blue Ridge Parkway to award 
grants for certain purposes. This grant authority would be 
unprecedented. One purpose of the grants would be to acquire land and 
interests in land, although the bill does not specify what guarantee 
the taxpayer would receive that the lands would be permanently 
protected. We would like to consider how such authority might be used 
to supplement, yet not duplicate, the National Park Service's own land 
acquisition capability, which is funded directly by Congress. We are 
fortunate to have an office that handles land acquisition for the Blue 
Ridge Parkway-the National Park Service's National Trails Office in 
Martinsburg, West Virginia-that is so well regarded for its expertise 
in acquisition at linear units that other federal agencies have used 
its services for that purpose. We are also fortunate to have the 
expertise and leveraging capability of several nonprofit land 
conservation organizations in protecting lands that are critical to the 
integrity of the Blue Ridge Parkway. We need to employ both 
capabilities in this cause.
    Subsection 5(b) as introduced lacks provisions regarding intended 
recipients and requirements for disposition of the land acquired 
through grants, so we are unclear about exactly what is intended. 
However, this proposed authority may be the seed of an idea for better 
utilizing the capabilities of nonprofit land conservation organizations 
in the protection of the Blue Ridge Parkway. The organizations have at 
their disposal certain resources and tools that federal land 
acquisition officials lack. We would like to work with the committee 
and the bill's sponsors to explore ways to enhance the use of the 
organizations' capabilities in the cause of protecting the parkway.
    The second purpose of the grants would be to enter into cooperative 
agreements with nonprofit conservation organizations for technical 
expense assistance, such as appraisals and hazardous material surveys, 
for lands the organizations acquire for conveyance to the parkway. It 
is a common practice for conservation organizations to acquire land for 
potential addition to National Park Service units with the intent of 
holding the properties until the National Park Service is able to 
acquire them. However, in these cases, the expenses associated with 
acquiring these lands are borne by the organizations; they are not paid 
by the National Park Service unless arrangements are made in advance to 
coordinate the ordering of these services to avoid duplication of the 
expenses. We are concerned that paying for expenses associated with 
acquisition in advance of a conveyance would raise expectations about 
acquiring property that might not be met. In addition, setting this 
precedent for federal funding of non-federal administrative costs would 
treat land acquisition at the Blue Ridge Parkway differently than 
acquisition at every other unit of the National Park System, which 
would not be fair or appropriate.
    Finally, Section 5(d) makes clear that the cooperative agreement 
arrangements with nonprofit organizations that are contemplated in this 
legislation could entail annual payments of as much as $250,000 a year 
to defray the organizations' ``administrative expenses,'' which would 
not necessarily be limited to costs associated directly with land 
acquisition. This could open the door to the reimbursement of costs 
that are unrelated to the purposes of the Land and Water Conservation 
Act. Since the act prohibits federal employees from being paid for any 
expenses not related to federal land acquisition from funds 
appropriated for land acquisition, it would run counter to the spirit 
of the act to allow non-federal employees to be paid for expenses not 
related to federal land acquisition.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.

    Senator Udall. Thank you, Mr. Wenk.
    Let us turn to Mr. Wilson for your statement, and then the 
ranking member and I will direct some questions and comments 
your way.
    So, Mr. Wilson, the floor is yours. Welcome.

 STATEMENT OF D. REID WILSON, EXECUTIVE DIRECTOR CONSERVATION 
                    TRUST FOR NORTH CAROLINA

    Mr. Wilson. Thank you, Chairman Udall and Ranking Member 
Burr.
    My name is Reid Wilson, and I am the executive director of 
the Conservation Trust for North Carolina. CTNC works to 
increase the amount of protected natural lands in our beautiful 
State, and we do this in 2 ways.
    First, we represent, promote, and assist 24 local land 
trusts, so that they can protect more land in the communities 
they serve. Second, we have the good fortune of being a land 
trust ourselves that focuses on protecting land along the Blue 
Ridge Parkway.
    I am presenting my testimony today on behalf of eight other 
land trusts in Virginia and North Carolina that work to protect 
parkway lands. We all strongly support the Blue Ridge Parkway 
Protection Act, S. 2951, introduced by Senator Burr and 
cosponsored by Senators Hagan, Webb, and Warner, and H.R. 4524, 
introduced by Representatives Shuler, Price, Boucher, and 
Perriello.
    I want to express our sincere thanks to you, Senator Burr, 
and to the other sponsors for introducing this important 
legislation and for your leadership.
    These bills would provide much-needed funding to conserve 
lands to help ensure that the parkway is as awe-inspiring to 
future generations as it is to us today. There are 5 reasons 
why it is critically important to expand funding for land 
conservation along the Blue Ridge Parkway.
    First, parkway is the most visited unit of the National 
Park Service, but its most popular features are under threat. 
The parkway is a national treasure. Its 469 miles of 
spectacular vistas, mature forests, pristine streams, and 
hiking trails attract nearly 20 million visitors per year. Yet 
it is an extremely fragile ribbon threatened by development.
    In most places, the parkway's land corridor is only 800 
feet wide, and most of the property that makes up the views is 
privately owned, vulnerable to development. In recent years, 
unplanned rampant growth has denuded forests, choked streams 
with silt, destroyed wildlife habitat, and ruined scenery.
    In a recent survey of parkway visitors, over 95 percent 
said that scenic vistas were extremely important or very 
important in their decision to visit the parkway. An earlier 
survey found that if scenic quality degrades, roughly one 
quarter of visitors would reduce their number of visits to the 
parkway and many would not return at all.
    So why is that important? This brings me to my second 
point, which is that the parkway is one of the strongest 
economic engines in the region, providing $2.3 billion to local 
communities in those 2 States.
    As Senator Burr well knows, thousands of furniture and 
textile jobs in the mountains are gone, and they aren't coming 
back, unfortunately. We can't afford to allow the tourism 
industry to suffer the same fate as manufacturing. So we must 
conserve the parkway, the backbone of tourism in this region.
    Third, the corridor along the parkway is an incredible 
natural resource with rich and diverse wildlife habitat. The 
parkway contains 600 miles of pure mountain streams. It also 
contains 43 species of amphibians, over 1,600 species of 
plants, and 9 federally listed threatened or endangered 
species. Adding more acres to the parkway would ensure that 
wildlife habitat is protected rather than fragmented.
    Fourth, this bill is urgently needed due to the effects of 
the recession. For one thing, there is less State funding 
available for conservation projects now. On the flip side, 
there is more land available for less money, due to falling 
real estate prices and distressed properties coming onto the 
market.
    While development along the parkway has slowed, its pace 
was furious before the recession and will, no doubt, pick up 
again. So there is no time to waste.
    Fifth, the parkway is celebrating its 75th anniversary this 
year. Passage of the Blue Ridge Parkway Protection Act and 
appropriation of funding would be a fitting way to mark the 
anniversary of this hugely popular, but chronically underfunded 
jewel of the National Park System.
    The bill itself is straightforward. It would authorize $75 
million over 5 years to purchase properties and conservation 
easements adjacent to the parkway. All transactions would be 
done with willing land owners, no eminent domain. Only 
properties listed as priorities in the Blue Ridge Parkway's 
Land Protection Plan would be eligible to receive funding.
    The bill would facilitate partnerships between the Park 
Service and nonprofit conservation organizations. Often these 
land trusts can move more quickly than the Government. The land 
trusts could buy the land or easement, hold it, manage it, 
protect it until the Park Service could supply its funding. 
Otherwise, you might lose the property to development.
    Then all fee simple purchases would be conveyed to the 
National Park Service and added to the parkway's boundaries, 
and all properties with conservation easements would continue 
in private ownership, and easements would be held and monitored 
by the National Park Service.
    We understand that the National Park Service has some 
concerns about the bill as drafted. From my conversations with 
the staff of the bill's lead sponsors, it is clear that there 
is a strong desire to work with the Park Service to resolve 
these issues. I just want to say that from the land trusts, who 
are very interested in this, we are equally eager to work with 
all those involved to come up with language that is agreeable 
to everyone.
    We all share a sense of responsibility to pass on to future 
generations clean rivers and streams, abundant wildlife 
habitat, ample opportunities to enjoy the outdoors, and a sound 
economy--in short, a high quality of life. The Blue Ridge 
Parkway Protection Act would help achieve all of those goals 
for those who come after us.
    I respectfully urge you to pass this important legislation 
and to work with the Appropriations Committee to secure funding 
in the next budget. Admittedly, our Nation faces extraordinary 
budget constraints. But just like 75 years ago when the parkway 
was created, this relatively small investment will save a 
treasured landscape at bargain prices and ensure that jobs are 
created and maintained in a region of the country with chronic 
high unemployment.
    Thank you, and I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Wilson follows:]

Prepared Statement of D. Reid Wilson, Executive Director, Conservation 
                       Trust for North Carolina,
                                s. 2951
    Thank you, Chairman Udall, Ranking Member Burr, and members of the 
subcommittee. I appreciate the opportunity to be here today. My name is 
Reid Wilson, and I am the Executive Director of the Conservation Trust 
for North Carolina, based in Raleigh. CTNC works to increase the amount 
of protected natural lands in our beautiful state. We do this in two 
ways. First, we represent, promote and assist 24 local land trusts, so 
that they can protect more land in the communities they serve. Second, 
we are a land trust ourselves, and we focus on conserving the natural 
and scenic corridor of the Blue Ridge Parkway.
    I present my testimony on behalf of eight other local land trusts 
that do excellent work to protect lands along the Parkway--Blue Ridge 
Rural Land Trust, Foothills Conservancy of North Carolina, High Country 
Conservancy, Land Trust for the Little Tennessee, Piedmont Land 
Conservancy and Southern Appalachian Highlands Conservancy, all in 
North Carolina, and Western Virginia Land Trust and Valley Conservation 
Council in Virginia.
    The Conservation Trust for North Carolina has protected over 30,000 
acres along the Blue Ridge Parkway in 39 locations. Properties we've 
conserved include the 17,000-acre watershed that supplies drinking 
water for the city of Asheville, and the 8,000-acre watershed for the 
town of Waynesville. CTNC over the years has protected and conveyed 18 
properties (all but two of them donated) totaling 1,321 acres to the 
National Park Service, and these lands have been added to the 
boundaries of the Parkway. We appreciate the close working relationship 
we have with the excellent staff at the Blue Ridge Parkway.
    We strongly support the Blue Ridge Parkway Protection Act, S. 2951, 
sponsored by Senator Burr and cosponsored by Senators Hagan, Webb and 
Warner, and H.R. 4524, introduced by Representatives Shuler, Price, 
Boucher and Perriello. These bills would provide much-needed funding to 
conserve lands to help ensure that the Parkway is as awe-inspiring to 
future generations as it is to us today.
    There are five reasons why it is critically important to expand 
funding for land conservation along the Blue Ridge Parkway.

  <bullet> First, the Blue Ridge Parkway is the most visited unit of 
        the National Park Service, but its most popular features are 
        under threat.
  <bullet> Second, the Parkway is the economic lifeblood of nearby 
        mountain communities.
  <bullet> Third, the Parkway is an incredible natural resource with 
        rich and diverse wildlife habitat.
  <bullet> Fourth, right now is an outstanding time to buy land along 
        the Parkway.
  <bullet> Fifth, the Parkway celebrates its 75th anniversary this 
        year.

    Let me take each point in turn.
    First, the Parkway is a national treasure. Its 469 miles of 
spectacular vistas, mature forests, pristine streams and hiking trails 
attract nearly 20 million visitors per year to North Carolina and 
Virginia. Yet the Parkway is an extremely fragile ribbon, and its 
scenic, cultural, and natural integrity are threatened by development. 
In most places, the Parkway's land corridor is only 800 feet wide, and 
most of the property that makes up its views is privately owned, 
vulnerable to development at a moment's notice.
    In recent years, unplanned rampant growth along the Parkway has 
denuded forests, choked streams with silt, destroyed wildlife habitat, 
and ruined scenery with new subdivisions, roads, and shopping centers. 
In a recent survey of Parkway visitors, over 95 percent said that 
scenic vistas were extremely important or very important in their 
decision to visit the Parkway. An earlier survey found that if scenic 
quality declines, 22 percent of respondents in North Carolina and 26 
percent of respondents in Virginia would reduce their number of visits 
to the Parkway. Many said they would not return at all.
    Clearly, people travel to the Parkway to see the views. The best 
way to protect those vistas is to conserve the lands that comprise 
them.
    Second, the Parkway is one of the strongest economic engines in the 
region, providing $2.3 billion per year to local communities. Visitors 
spend between $149 and $172 per person per day at the Parkway. Clearly, 
protecting the Blue Ridge Parkway is critical to future economic growth 
in neighboring communities. The growing tourism industry depends on a 
healthy Parkway. The furniture and textile industries have been hit 
hard in the mountains. Those jobs are gone, and aren't coming back. We 
can't afford to allow the tourism industry to suffer the same fate as 
manufacturing, so we must conserve the Parkway--the backbone of tourism 
in this region.
    Let me give you a couple of examples that show how fundamental the 
Parkway is to economic growth for dozens of towns up and down its 
length. Whenever a section of the Parkway is temporarily closed for 
repairs or by snow, Parkway staff receive numerous anxious phone calls 
from inn and restaurant owners. They want to know how soon the road 
will be reopened because their businesses are taking a hit. Now imagine 
if 10 percent or 20 percent fewer visitors came to the Parkway each 
year. We know from the Park Service survey that declines of that 
magnitude could take place if the views alone are degraded. This would 
devastate local businesses--outfitters, restaurants, guides, 
attractions, inns and hotels--that depend on tourists.
    Or take the Orchard at Altapass. This historic apple orchard and 
general store sits adjacent to the Parkway about an hour north of 
Asheville. It's a hub of activity in spring, summer and fall. It's a 
place where locals come to clog to live music, visit with their friends 
from neighboring hollows, purchase from among 75 varieties of delicious 
apples, and grab an ice cream cone when it's hot. It's a place where 
tourists flock, especially in the fall, to see stunning views of 
mountain foliage from the store's patio. On one weekend alone last fall 
the orchard had 6,000 visitors. I can guarantee you that those numbers 
would have been cut by half or more, had the views been developed. 
Fortunately, CTNC helped broker a deal with the landowner, CSX 
Railroad, and the state of North Carolina to place a conservation 
easement on nearly 1,500 acres adjacent to the orchard. Not only will 
the views be protected forever, but so will jobs at the orchard and in 
the nearby tourism-dependent towns of Spruce Pine and Little 
Switzerland.
    Third, the corridor along the Parkway contains important natural 
areas that should be protected and expanded. The Parkway is home to the 
headwaters of 15 watersheds and contains some 600 miles of pristine 
streams. Protecting water at the source means that downstream 
communities pay less to supply clean drinking water to their residents. 
The Parkway also contains 43 species of amphibians, over 1600 species 
of plants, and nine federally listed threatened or endangered species. 
Juxtaposed with those numbers is the number of the Parkway's adjacent 
landowners--roughly 4,500. The Parkway has surveyed the 29 counties it 
runs through to determine what plans they have for development, and 
based on that, staff believe that development will become an even more 
pressing problem in the years to come. Adding more acres to the Parkway 
would ensure that wildlife habitat is protected and not fragmented.
    Fourth, this bill is urgently needed due to the effects of the 
recession. For one thing, there is less state funding available for 
conservation projects. And, on the flip side, there is more land 
available to conserve, for less money, due to falling real estate 
prices and distressed properties coming onto the market. For instance, 
CTNC was able to purchase a 534-acre conservation property at a 
discount at the very end of 2008. And, we're currently negotiating with 
a bank to purchase a foreclosed property. We have an outstanding 
opportunity to buy Parkway land, but it won't last indefinitely. While 
development has slowed during the recession, its pace was furious 
before then, and will no doubt pick up again with the economy. There's 
no time to waste.
    Fifth, the Parkway is celebrating its 75th anniversary in 2010, 
culminating in September. Passage of the Blue Ridge Parkway Protection 
Act and appropriation of funds would be a fitting way to mark the 
anniversary of this hugely popular but chronically underfunded jewel of 
the national parks system.
    Seventy-five years ago, the United States faced an economic crisis 
much like the one we're in today. Rather than lock away its money, the 
federal government invested--funding public works programs that not 
only put hundreds of thousands of people to work, but created, 
protected and promoted some of the nation's best-loved places, 
including the Blue Ridge Parkway. The Parkway has been an unqualified 
success.
    Continued federal investment in the Parkway is a must to ensure 
that it will thrive for generations to come.
    Fortunately, North Carolina and Virginia lawmakers have taken the 
lead on legislation to help save the Blue Ridge Parkway's majestic 
views and natural areas. I want to thank Senators Burr, Hagan, Warner 
and Webb, and Representatives Shuler, Price, Boucher and Perriello for 
their leadership in introducing the Blue Ridge Parkway Protection Act. 
This legislation is desperately needed because a lack of funding has 
been a critical barrier to protecting the Parkway's forests, streams 
and vistas.
    The bill is straightforward. Here are the highlights.

  <bullet> It would authorize $75 million over five years, beginning in 
        FY 2010-11, to purchase fee simple properties and conservation 
        easements adjacent to the Parkway, towards a goal of protecting 
        an additional 50,000 acres.
  <bullet> All transactions would be done with willing landowners. 
        Nothing would be taken by eminent domain claims.
  <bullet> Only properties listed as priorities in the Blue Ridge 
        Parkway's Land Protection Plan would be eligible to receive 
        funding.
  <bullet> Any lands or easements purchased would have to be adjacent 
        to the Parkway.
  <bullet> The bill would enable the Park Service to work in 
        partnership with non-profit conservation organizations to 
        conserve priority properties. Often these land trusts can move 
        more quickly than the federal government to purchase a property 
        or easement. The land trusts could buy the land or easement, 
        hold it, protect it and manage it until the Park Service could 
        supply funding to the land trust. The bill would ensure that 
        these non-profits are reimbursed by the government after 
        purchasing the properties or easements on behalf of the Park 
        Service.
  <bullet> No purchase would be made over appraised value.
  <bullet> All fee simple purchases would be conveyed to the National 
        Park Service and added to the Parkway's boundaries as soon as 
        feasible. All properties with conservation easements would 
        continue in private ownership, and easements would be held and 
        monitored by the National Park Service.

    Passage of this bill and subsequent appropriations would constitute 
a critical investment in the Blue Ridge Parkway's scenic, natural, and 
cultural vitality, and in the future economic well-being and quality of 
life of North Carolina and Virginia. Although the funds provided by the 
Blue Ridge Parkway Protection Act would not be used for traditional 
brick and mortar projects, they would provide a long-term stimulus for 
small businesses throughout the Blue Ridge Mountains to maintain jobs 
that depend on tourism.
    We understand that the National Park Service has some concerns 
about the bill as drafted, specifically about the mechanism for 
providing the funding for specific properties. From my conversations 
with the staff of the bill's lead sponsors, it is clear that there is a 
strong desire to work with the Park Service to resolve these issues. 
CTNC and other land trusts that work along the Parkway are similarly 
eager to work toward language that is acceptable to all. I'm happy to 
report that discussions between congressional staff and the Park 
Service are already underway.
    We all share a sense of responsibility to pass on to future 
generations clean rivers and streams, abundant wildlife habitat, ample 
opportunities to enjoy the outdoors, and a sound economy--in short, a 
high quality of life. The Blue Ridge Parkway Protection Act would help 
achieve all of those goals for those who come after us.
    I respectfully urge you to pass this important legislation and to 
work with the Appropriations Committee to secure funding in the FY 
2010-11 budget and beyond. Admittedly, our nation faces extraordinary 
budget constraints, but just like 75 years ago, this relatively small 
investment will save a treasured landscape at bargain prices and ensure 
that jobs are created and maintained in a region of the country with 
chronic high unemployment.
    Thank you, and I'd be happy to answer any questions.

    Senator Udall. Thank you, Mr. Wilson.
    Let me turn immediately to Senator Burr for his questions. 
Again, thanks for the testimony.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Wenk, glad to have you here as always. Reid, I can't 
thank you enough for your willingness to come up here. I might 
say, for the chair's own knowledge, he has agreed to be with us 
today while his son's fifth grade class is in Washington, DC, 
and I think probably touring right now. So----
    Mr. Wilson. They are in the Capitol somewhere.
    Senator Burr. So I appreciate you breaking away to do this. 
Let me say for members and for staff, the Blue Ridge Parkway is 
a unique treasure. If this were an initiative today between the 
Congress and the Park Service, we would find that path of land. 
We would construct a road. There would be no spot on that that 
there was only 800 feet of protected land.
    I think the one thing that we have seen with protection of 
our parks, we have gone back and we have added to, as we saw 
the value of a particular space and the need to preserve it. I 
think it is safe to say that the Park Service and the Blue 
Ridge Parkway have never gone through that process.
    The exchanges that have taken place over time between the 
Park Service and private land owners was a convenience item. It 
was the trade of this acre for that acre, trying to make sure 
that both could coexist. With few exceptions, there have been 
efforts to bring more land under the Blue Ridge Parkway for the 
purposes of preservation. This is a real effort.
    I think there is a way for us to find the right language to 
be able to do this. I think it is particularly special on the 
75th anniversary that we would look at this as the single most 
used national park treasure that we have, and I might say it 
runs straight to the doorstep of the Great Smoky Mountains 
National Park, which is the most visited national park in the 
country.
    I dare say if you put together the numbers, it may take the 
rest of the parks in total to equal the visitation--you like 
that, don't you--of the Great Smokies. Now we have had the 75th 
anniversary of the Great Smokies, and we had a wonderful event 
with Secretary Salazar. The only thing that could diminish the 
greatness of the Great Smokies is to diminish the highway that 
a lot of people use where they enjoy both park entities to get 
there.
    So, Reid, let me just turn to you. Talk to us just about 
the economic impact of the Blue Ridge Parkway.
    Mr. Wilson. Sure. To stress again, it really is the 
economic lifeblood of the mountains these days in North 
Carolina, $2.3 billion per year. What we are talking about in 
this bill is just providing $15 million per year, which would 
help leverage keeping that $2.3 billion going into local 
economies year after year by protecting the lands along the 
parkway.
    Let me just give you an example of one place along the 
parkway that I think shows how important economically the 
parkway is to local communities. There is a place called the 
Orchard at Altapass. It is near 2 little towns of Spruce Pine 
and Little Switzerland, and it is a gorgeous little place. Not 
only is it an apple orchard with 75 different varieties, but it 
is sort of a country store and a gathering point for people 
throughout the hills and mountains nearby.
    Nine months of the year, people come from nearby 
communities to listen to live music and clog and eat ice cream 
when it is hot out and just catch up with their neighbors. But 
in the fall especially, it is an amazing draw for tourists all 
over the place coming to see that spot. On a typical weekend in 
the fall, there are 6,000 people that go to this one apple 
orchard, on a given weekend in the fall.
    They are spending their money not only at the orchard, but 
in restaurants and inns and hotels in nearby communities. Just 
this past year, after more than 6 years of work, our 
organization was able to help broker a deal between the CSX 
Railroad, which owns 1,500 acres next to this orchard, and the 
State of North Carolina to purchase a conservation easement on 
that property.
    So now it is guaranteed forever that that 1,500 acres, 
which is this unbelievable backdrop from the orchard's patio, 
will be there and will continue to draw 6,000 people per 
weekend in the fall. There are stories like that up and down 
the Blue Ridge Parkway of these small towns that are just 
depending on tourists continuing to come to those attractions 
in the future. So you could tell that story in 100 different 
places.
    Senator Burr. I appreciate that, and for purposes again of 
our members, even the Smithsonian recognized the value of the 
Blue Ridge Parkway and built a facility off of the parkway 
which houses the bluegrass museum or the bluegrass inventory of 
the Smithsonian. I think it certainly recognizes the historic 
nature of music in that Appalachian region, and the Blue Ridge 
Parkway is that conduit to get to it.
    Dan, I know you mentioned in your testimony that you are 
sympathetic to the desire of supporters. There is a way to work 
this out, isn't there?
    Mr. Wenk. I think our concern is, first of all, many of the 
things that are in the bill already--for example, we can buy 
lands that are contiguous to the property. We have an unlimited 
authority to expend funds at the Blue Ridge Parkway on 
acquisition of lands.
    There are some concerns in terms of the granting authority 
to an NGO, or not-for-profit organization to buy on our behalf. 
There is also some concern that we have in terms of the Land 
and Water Conservation Fund, for example, we cannot spend funds 
on ``administrative expenses''.
    However, there is an appropriation or there is a provision 
in this that would allow up to $250,000 to be granted, if you 
will, to not-for-profit organizations. Within the spirit of the 
law, they could use that for ``administrative expenses'' to 
acquire lands under Land and Water Conservation Fund. So I 
think that is conflict, if you will, with the spirit of the 
law.
    So we are very, very happy to work with you and your staff. 
We have the same goals, and that is to ensure the protection of 
the lands along the Blue Ridge Parkway and the scenic vistas 
that people do go to visit.
    Senator Burr. I think all would agree that in some cases, 
an 800-foot swath is not protecting. More importantly, if you 
have encroachment on the area, there is a greater likelihood of 
the erosion that we have seen frequently along the parkway. 
When that road is shut down because of a rock slide or the loss 
of part of the road, it is a devastation to the local economy. 
So we want to make sure that there is as much protection as we 
can.
    If I could ask for the chair's indulgence, just real 
quickly, I am going to go over to Dan to S. 1018, the center 
for Cane River Creole National Historic Park. Can you tell me 
whether this type of arrangement to build a national park 
facility on a non-Park Service land is common practice?
    Mr. Wenk. It is not unprecedented. I can think of, for 
example, in Colorado at Dinosaur National Monument with Utah, 
with the State of Utah, we have a joint facility there. We have 
one at New Mexico, I believe, that is a facility that would 
house curatorial facilities.
    So it is not uncommon. It is not common, but there are 
examples of it in the system.
    It is the intention of the National Park Service to try to 
consolidate our museum collections wherever we can because we 
believe there is cost and power efficiencies to do that.
    Senator Burr. Are there benefits realized by having the 
center located on the university grounds versus on Park Service 
grounds?
    Mr. Wenk. I think it is the synergy, if you will, between 
the 3 organizations being able to combine their collections for 
scholarly work, for research, and the university has indicated 
that they have the space. The construction cost, we have done 
the preliminary design. The construction cost of the facility 
is about $12.5 million.
    The nominal cost that they were looking to charge for the 
lease, we understand to be $1-a-year. We believe it should be 
extended to a 40-year term to fully amortize the construction 
cost.
    Senator Burr. Does the university pick up any of that $12 
million cost?
    Mr. Wenk. My current understanding is no. That would be a 
construction cost borne by the National Park Service.
    Senator Burr. Then there would be a 40-year lease and a 
charge for the----
    Mr. Wenk. One dollar a year for 40 years is my 
understanding of the nominal cost.
    Senator Burr. OK. Let me switch, if I could, very quickly 
to S. 1017, the Cane River National Heritage Area Commission. 
Can you elaborate on the role of the Cane River National 
Heritage Area Commission?
    Mr. Wenk. This commission, just as other commissions 
throughout the country at heritage areas, plays a critical role 
in the planning for and the administration of the national 
heritage area. This commission does expire, I believe, in 
August 2010. The legislation currently looks at a 15-year 
extension.
    I would just say, Senator, that if we were to do this the 
same as we did the areas that were established in 1996, 
included those a 5-year extension. So we do have some concern 
about a 15 year extension because the goal of this commission 
is to literally make themselves self-sustaining and to really 
take over the full management responsibilities within the 
period of time allotted.
    Senator Burr. Does the Park Service provide funds for the 
operation of the commission?
    Mr. Wenk. The Park Service provides a limited amount. We 
have a limited amount of funding that is distributed between 
all the national heritage areas. That is, some of it is a base 
amount, and they can compete for more of those funds, but there 
is limited funding. I cannot tell you precisely what was 
provided to Cane River Creole last year or this year.
    Senator Burr. OK. For the record, could you supply that 
number for us?
    Mr. Wenk. Yes.
    Senator Burr. I would appreciate it.
    Last thing, if I could, Dan, sort of going back to the Blue 
Ridge possible acquisition. There are some concerns regarding 
the loss of lands for recreation and hunting purposes if a bill 
were to pass. It is not the intent of the bill to limit hunting 
on acquired lands. Can you assure me that there would be no net 
loss of hunting land through land acquisition proposed within 
this bill?
    Mr. Wenk. Senator, I am not totally familiar with the law 
as it reads pertaining to hunting at the Blue Ridge Parkway. I 
cannot provide you that assurance sitting here today, but I 
will look at what the law says in terms of if those lands came 
within the boundary of Blue Ridge Parkway, I would believe that 
they would come in under the same conditions of the rest of the 
land of the Blue Ridge Parkway.
    So I need to determine exactly what that is.
    Senator Burr. Thank you. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. So, Mr. Wenk, you took that for the record, 
and I assume you will respond to Senator Burr's comments?
    Mr. Wenk. Yes.
    Senator Udall. Let me follow up on Senator Burr's 
questioning on the Cane River National Heritage Area. Do you 
have any concerns with the commission and its operation that 
would be reauthorized by this bill?
    Mr. Wenk. No. We believe that the commission is an 
effective commission as any in the National Park System around 
the national heritage areas. Our only concern is the length of 
the term.
    Senator Udall. The length. As I understand it, the 
commission has prepared a management plan, which the Park 
Service and the Governor of Louisiana both approved. If 
implementation of the approved plan is still underway, why 
wouldn't the Park Service want the commission to continue its 
work?
    Mr. Wenk. It is not that we don't want them to continue the 
work. We are asking for program legislation, and we believe 
that program legislation will put all national heritage areas 
under the same basis of operation, and we believe that we 
should defer action on any of these until we have that program 
legislation, which we hope to get up to Congress for 
consideration soon.
    Senator Udall. So, in part, this is about consistency and--
--
    Mr. Wenk. Correct.
    Senator Udall [continuing]. Similar management approach and 
applying the same criteria to heritage areas across the 
country?
    Mr. Wenk. The same criteria to establish them as well as 
for their continued management.
    Senator Udall. In your view, is extending the authorization 
for the Cane River National Heritage Area Commission the same 
as extending the authorization of the heritage area itself?
    Mr. Wenk. No, I don't believe it is the same. I don't think 
the heritage area itself is affected. The heritage area will 
still be there, but the management entity is what we are 
talking about with the commission.
    Senator Udall. OK. Let me move to S. 1537, the Norman 
Borlaug National Historic Site. As we know, it would establish 
a new national historic site. Given the significance of Dr. 
Borlaug's scientific and humanitarian achievements and since 
the property would be donated to the National Park Service, why 
is a formal study necessary?
    Mr. Wenk. A formal study will do 3 things. It will 
determine the national significance and the suitability and 
feasibility of that site coming and being able to be 
effectively managed by the National Park Service.
    It will also look at what other options might be available 
for the preservation of that area. Is there a more appropriate 
entity that should perhaps have the jurisdiction over that 
area? So we really would have the test of national 
significance, suitability, and feasibility through a special 
resource study.
    Senator Udall. That is fair enough. I look forward to 
hearing more about Dr. Borlaug. He sounds like quite an 
American story. I think it is appropriate that we are 
considering acknowledging his contributions.
    Mr. Wilson, I might turn to you. Senator Burr has a busy 
day. I know his staff are here. I just--I wanted to acknowledge 
the important work that the land trust world does in Colorado 
and in the West. Of course, we have seen an explosion of land 
trusts, who have this marvelous capacity to bring public and 
private sector viewpoints and resources together.
    Certainly, the advent of conservation easements and other 
tools to leverage dollars as well as work with fixed assets and 
illiquid assets has really been a success story. So 
congratulations to you, and I know you work with your 
compatriots all over the country.
    Mr. Wilson. Thank you.
    Senator Udall. We continue in the national park world to 
look for ways in which to create more buffer areas. I know, Mr. 
Wenk, you know this is a challenge that we face, and 100 years 
ago, 150 years ago, those who had the first ideas about 
national parks didn't realize the kind of pressures that might 
develop, although they did sense them. That was the very reason 
to create national parks. In effect, I think that is what you 
are asking to do is create more buffer zones.
    I was curious, you said this wonderful apple orchard, 9 
months of the 12 months, the 3 months in the winter, is it 
closed?
    Mr. Wilson. They close it up because it is cold.
    Senator Udall. It is cold. Is there snow on the ground?
    Mr. Wilson. Yes. Often the roads, especially the parkway is 
closed off when there is snow.
    Senator Udall. The parkway is actually closed off. That 
area you mentioned, do Virginia and North Carolina compete for 
the business of those tourists that travel----
    Mr. Wilson. Yes, but it is a friendly competition.
    Senator Udall. Friendly competition, which I noted both 
Virginia Senators and both North Carolina Senators were 
supportive, as well as House members from both States. So that 
underlined the importance of working together to see if we can 
bring this legislation to fruition.
    Again, thank you both for your time and your testimony. I 
would like to thank both of you for your testimony.
    Some members of the committee may submit additional 
questions in writing. If so, we may ask you to submit 
additional answers for the record. We will keep the hearing 
record open for 2 weeks to receive any additional comments.
    With that, the Subcommittee on National Parks is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]






</pre></body></html>
